APPENDIX

TABLE OF APPENDICES
Appendix A
Opinion, United States Court of Appeals
for the Ninth Circuit, B.K. v. Snyder,
No. 17-17501 (Apr. 26, 2019) ...................... App-1
Appendix B
Order, United States Court of Appeals for
the Ninth Circuit, B.K. v. Snyder, No. 1717501 (July 15, 2019) ................................ App-49
Appendix C
Order, United States District Court for
the District of Arizona, Tinsley v.
Flanagan, No. CV-15-00185 (Sept. 30,
2017)........................................................... App-51

App-1
Appendix A
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________
No. 17-17501
________________
B.K., by her next friend Margaret Tinsley, B.T., by
their next friend Jennifer Kupiszewski; A.C.-B., by
their next friend Susan Brandt; M.C.-B., by their next
friend Susan Brandt; D.C.-B., by their next friend
Susan Brandt; J.M., by their next friend Susan Brandt,
Plaintiffs-Appellees,
v.
JAMI SNYDER, in his official capacity as Director of
the Arizona Health Care Cost Containment System,
Defendant-Appellant.
________________
No. 17-17502
________________
B.K., by her next friend Margaret Tinsley, B.T., by
their next friend Jennifer Kupiszewski; A.C.-B., by
their next friend Susan Brandt; M.C.-B., by their next
friend Susan Brandt; D.C.-B., by their next friend
Susan Brandt; J.M., by their next friend Susan Brandt,
Plaintiffs-Appellees,
v.
GREGORY MCKAY, in his official capacity as Director
of the Arizona Department of Child Safety,
Defendant-Appellant.
________________

App-2
________________
Argued and Submitted: Jan. 17, 2019
San Francisco, California
Filed: Apr. 26, 2019
________________
Before: J. Clifford Wallace and Michelle T. Friedland,
Circuit Judges, and Lynn S. Adelman, *
District Judge.
________________
OPINION
________________
WALLACE, Circuit Judge:
The Arizona Department of Child Safety and the
Arizona Health Care Cost Containment System are
responsible for delivering health care and other
services to the thousands of children in the Arizona
foster care system. In 2015, ten of those children
brought an action against the directors of these
agencies for alleged violations of the federal
Constitution and the Medicaid Act, alleging that
Arizona’s state-wide policies and practices deprived
them of required medical services, among other
things, and thus subjected them to a substantial risk
of harm. Based on these claims, the district court
certified a class of all children who are or will be in the
Department of Child Safety’s custody, along with two
subclasses. The Director of the Department of Child
* The Honorable Lynn S. Adelman, United States District
Judge for the Eastern District of Wisconsin, sitting by
designation.

App-3
Safety and the Director of the Health Care Cost
Containment System timely sought review of those
class certification decisions, and we accepted their
interlocutory appeals. We have jurisdiction under 28
U.S.C. § 1292, and we affirm in part, vacate in part,
and remand for further proceedings.
I.
A.
Gregory McKay is the Director of the Arizona
Department of Child Safety (DCS). DCS’s primary
purpose is to “protect children,” by investigating
reports of abuse and neglect, establishing foster care
placements, working with law enforcement,
maintaining permanency, and providing treatment to
families. Ariz. Rev. Stat. (ARS) § 8-451. Pursuant to
DCS’s statutory framework, DCS investigates reports
of threats to child safety and may remove children
from their homes by superior court order, consent of
the child’s guardian, or where “clearly necessary to
protect the child because exigent circumstances exist.”
ARS § 8-821(A), (D). DCS may also petition to
commence dependency proceedings in Arizona state
court by alleging that a child is dependent. ARS § 8841(A). On the filing of such a petition, the Arizona
court may issue “temporary orders necessary to
provide for the safety and welfare of the child,” ARS
§ 8-841(F), and assumes continuing jurisdiction “over
all matters affecting dependent children,” In re Appeal
in Maricopa Cty. Juvenile Action No. JD-6236, 874
P.2d 1006, 1008 (Ariz. Ct. App. 1994). The court then
holds a dependency hearing to adjudicate whether the
child is dependent. ARS § 8-844. If the child is
dependent, the court will typically place the child in

App-4
DCS’s legal custody, triggering DCS’s legal obligations
to the child. See, e.g., Oscar F. v. Dep’t of Child Safety,
330 P.3d 1023, 1025 (Ariz. Ct. App. 2014) (“Since the
day after the dependency petition was filed, the
children have been temporary wards of the Court,
committed to the legal care, custody and control of
DCS” (alterations and internal quotation marks
omitted)).
Jami Snyder is Director of the Arizona Health
Care Cost Containment System (AHCCCS). AHCCCS
administers Arizona’s Medicaid program, which
provides medical services to various categories of
individuals within the state. Medicaid is “a
cooperative federal-state program through which the
federal government provides financial assistance to
states so that they can furnish medical care to lowincome individuals.” Cal. Ass’n of Rural Health Clinics
v. Douglas, 738 F.3d 1007, 1010 (9th Cir. 2013).
Among those individuals are foster children within the
state’s care. See 42 U.S.C. § 1396a(a)(10)(A)(i)(I).
Medicaid is jointly financed by the federal and state
governments and is administered by state
governments through state “plans,” which are
approved by the federal Secretary of Health and
Human Services. Cal. Ass’n of Rural Health Clinics,
738 F.3d at 1010. Once a state joins the Medicaid
system, it must comply with federal statutory and
regulatory requirements to ensure that its plan
provides all required healthcare services. Id. These
requirements may be court-enforced through a private
claim by eligible Medicaid beneficiaries, when such a
claim exists. Id. at 1013. We refer to McKay and
Snyder collectively as “the Directors” unless the
context otherwise requires, without losing sight of

App-5
their unique statutory duties and the distinct claims
asserted against each.
The ten original plaintiffs in this case were foster
children in Arizona’s care. They initiated this action in
February 2015, alleging that the Directors had statewide policies and practices that violated their rights to
due process under the Fourteenth Amendment, family
integrity under the First, Ninth, and Fourteenth
Amendments, and medical services under the
Medicaid Act. 1 The plaintiffs’ original goal was to
maintain a class action with themselves as class
representatives, but over the next two-plus years of
litigation eight plaintiffs were adopted or otherwise
removed from the foster care system, leaving only two
at the time of class certification. Since class
certification, moreover, an additional plaintiff appears
to have aged out of the proposed classes. We therefore
discuss plaintiff B.K. as the representative class
member. 2
B.K. alleges that that she has been deprived of
necessary health care, separated from her siblings,
deprived of family contact, and placed in
inappropriate care environments. B.K. alleges that
these deprivations amount to violations of her right to
due process under the Fourteenth Amendment and of
The plaintiffs later voluntarily dismissed their family
integrity claim.
1

2 The record is admittedly vague on this point, but any vagary
is immaterial because it does not affect our disposition. On
remand, the district court remains free to certify, decertify, or
amend classes, and the parties may resolve which plaintiffs
remain adequate class members in that forum. See Fed. R. Civ.
P. 23(c)(1)(C).

App-6
her right to reasonably prompt early and periodic
screening, diagnostic, and treatment services (EPSDT
services) under the Medicaid Act. B.K. also alleges
that these violations are caused by specified statewide policies and practices.
B.
In November 2016, the named plaintiffs sought
class certification for a class of all children who are or
will be in DCS’s custody, along with a subclass of
children who, while in DCS’s custody, were not placed
in the care of an adult relative or person with a
significant relationship with the child, and a subclass
of children eligible for Medicaid. The named plaintiffs
supported their motion for class certification with
their complaint; raw data generated by DCS to show
how DCS was failing to deliver timely health care to
foster children; expert reports by Steven Blatt, MD,
Marci White, MSW, and Arlene Happach, a
psychologist, who declared that Arizona’s foster care
system put children in grave risk of harm by failing to
provide adequate care; and independent investigative
reports, deposition testimony, and DCS/AHCCCS
policy and educational materials. B.K. also supported
her claim as class representative with excerpts from
her DCS file that, if interpreted and credited as the
plaintiffs contended, could tend to show she has been
kept in inappropriate home settings and has serious
unmet mental and physical healthcare needs.
B.K. asserted two due process claims on behalf of
the general class, one due process claim on behalf of
the non-kinship subclass, and one Medicaid Act claim
on behalf of the Medicaid subclass. The district court
analyzed the class certification motion through the

App-7
lens of these claims. In September 2017, the district
court certified the following classes:
General Class: All children who are or
will be in the legal
custody of DCS due to a
report or suspicion of
abuse or neglect.
Non-Kinship
Subclass:

All members in the
General Class who are
not placed in the care of
an adult relative or
person
who
has
a
significant relationship
with the child.

Medicaid
Subclass:

All members of the
General Class who are
entitled to early and
periodic
screening,
diagnostic, and treatment
services under the federal
Medicaid statute.

The district court reasoned that the due process claims
could be litigated class-wide as to the General Class
and Non-Kinship Subclass by answering whether the
alleged statewide policies and practices were
unconstitutional, following our reasoning in Parsons
v. Ryan, 754 F.3d 657 (9th Cir. 2014). The district
court explained that:
Even if health issues may differ, every child
in the [DCS] custody is necessarily subject to
the same medical, mental health, and dental
care policies and practices of the [DCS] in the

App-8
same way that the inmates in Parsons were
subjected to the policies and practices of the
ADC [Arizona Department of Corrections].
Any one child could easily fall ill, be injured,
need treatment, require a diagnostic, need
emergency care, crack a tooth, or require
mental health treatment. And any child in
the foster care system would be subjected to
the [DCS] policies regarding placement
decisions. Thus, every single child in the
foster care system faces a substantial risk of
serious harm if [DCS] policies and practices
fail to adhere to constitutional requirements.
The district court followed similar reasoning to certify
the Medicaid Subclass, explaining that:
Similar to the constitutional claims, central
to the claim here is the question of whether
practices by [DCS] and AHCCCS failed to
adhere to the Medicaid statute. Even if a
child’s specific medical diagnosis may differ,
however, whether the foster care system’s
practices
establish
a
pattern
of
noncompliance arise from statewide policies
and practices by [DCS] and AHCCCS.
The district court also held that class certification
comported with Federal Rule of Civil Procedure
23(a)(1), (3)-(4) and 23(b)(2).
The Directors timely sought interlocutory review
of the district court’s class certification order, and we
stayed proceedings in the district court pending our
review. The only issue on appeal is whether the three
classes were properly certified, including whether the

App-9
named plaintiffs and class members have standing to
bring their claims.
II.
We review a district court’s class certification
decision for abuse of discretion. An error of
law is a per se abuse of discretion.
Accordingly, we first review a class
certification determination for legal error
under a de novo standard, and if no legal
error occurred, we will proceed to review the
decision for abuse of discretion. A district
court applying the correct legal standard
abuses its discretion only if it (1) relies on an
improper factor, (2) omits a substantial
factor, or (3) commits a clear error of
judgment in weighing the correct mix of
factors. Additionally, we review the district
court’s findings of fact under the clearly
erroneous standard, meaning we will reverse
them only if they are (1) illogical,
(2) implausible, or (3) without support in
inferences that may be drawn from the
record.
Sali v. Corona Reg’l Med. Ctr., 909 F.3d 996, 1002 (9th
Cir. 2018) (internal quotation marks, alterations, and
citations omitted).
“We review the district court’s factual findings [as
to standing] under the clearly erroneous standard and
review the district court’s determination of standing
de novo.” Ellis v. Costco Wholesale Corp., 657 F.3d 970,
978 (9th Cir. 2011).

App-10
III.
Class actions are governed by Federal Rule of
Civil Procedure 23. Rule 23(b)(2) provides that “[a]
class action may be maintained if Rule 23(a) is
satisfied and if . . . the party opposing the class has
acted or refused to act on grounds that apply generally
to the class, so that final injunctive relief or
corresponding declaratory relief is appropriate
respecting the class as a whole.” Rule 23(a) in turn
provides that “members of a class may sue or be sued
as representative parties on behalf of all members
only if” four class prerequisites are met. These four
prerequisites are commonly known as (1) numerosity,
(2) commonality, (3) typicality, and (4) adequacy of
representation. Gen. Tel. Co. of the Nw., Inc. v. EEOC,
446 U.S. 318, 330 (1980).
The Directors argue that all three classes in this
action should not have been certified by the district
court. We examine each class in turn.
A.
The district court certified a General Class
consisting of “[a]ll children who are or will be in the
legal custody of DCS due to a report or suspicion of
abuse or neglect.” This class alleges that Director
McKay has violated the class’s right to substantive
due process under the Fourteenth Amendment by
failing to care adequately for the children in the class.
The Directors argue that this class should have failed
because the class members lack standing to press their
due process claim, the class lacks commonality, the
representative plaintiffs’ claims and defenses are not
typical of the class, and uniform injunctive relief
under Rule 23(b)(2) is unavailable.

App-11
1.
We begin our analysis with standing. Standing is
a “threshold issue” and an “essential and unchanging
part of the case-or-controversy requirement of Article
III.” Horne v. Flores, 557 U.S. 433, 445 (2009) (quoting
Lujan v. Defs. of Wildlife, 504 U.S. 555, 560 (1992)).
“To establish standing, a plaintiff must present an
injury that is concrete, particularized, and actual or
imminent; fairly traceable to the defendant’s
challenged action; and redressable by a favorable
ruling.” Id. (citing Lujan, 504 U.S. at 560-61). The
Directors argue that absent class members lack
standing because some class members are adequately
receiving care, and thus do not have a concrete due
process injury. However, the Directors misunderstand
both the nature of the plaintiffs’ due process claims
and the nature of an Article III standing inquiry in the
context of class certification.
Of course, the Directors are correct that class
representatives must have Article III standing, as the
irreducible constitutional minimum of a case or
controversy. See In re Zappos.com, Inc., 888 F.3d 1020,
1024 (9th Cir. 2018). It was the named plaintiffs’
burden—as it would be any other plaintiff’s—to
support each standing element “in the same way as
any other matter on which the plaintiff bears the
burden of proof, i.e., with the manner and degree of
evidence required at the successive stages of
litigation.” Lujan, 504 U.S. at 561. “[T]he manner and
degree of evidence required at the preliminary class
certification stage is not the same as at the successive
stages of the litigation—i.e., at trial.” Sali, 909 F.3d at
1006 (internal quotation marks omitted). But the

App-12
Directors then confuse the standing analysis in a class
action for the class certification analysis. As we have
previously explained, “once the named plaintiff
demonstrates her individual standing to bring a claim,
the standing inquiry is concluded, and the court
proceeds to consider whether the Rule 23(a)
prerequisites for class certification have been met.”
Melendres v. Arpaio, 784 F.3d 1254, 1262 (9th Cir.
2015) (quoting 1 William B. Rubenstein, Newberg on
Class Actions § 2:6 (5th ed. 2011)). “[A]ny issues
regarding the relationship between the class
representative and the passive class members—such
as dissimilarity in injuries suffered—are relevant only
to class certification, not to standing.” Id. (quoting
Newberg on Class Actions § 2:6). This does not mean
that Article III considerations are irrelevant to Rule
23, for we are always “mindful that the Rule’s
requirements must be interpreted in keeping with
Article III constraints.” Ortiz v. Fibreboard Corp., 527
U.S. 815, 831 (1999) (alterations omitted) (quoting
Amchem Prods., Inc. v. Windsor, 521 U.S. 591, 612-13
(1997)). But it does mean that when we measure a
plaintiff’s standing, regardless of whether the plaintiff
sues individually or as class representative, we look
concretely at the facts that pertain to that plaintiff.
Thus, the relevant inquiry here is whether B.K. has
standing to bring the two due process claims asserted
on behalf of the General Class.
In this case, B.K. has standing to press her due
process claims, and that concludes the standing
inquiry. B.K. has serious medical diagnoses that
require prompt and adequate medical care from her
custodian, which is the State of Arizona. She has
presented evidence that she has not received adequate

App-13
medical care or appropriate placements in the past as
well as evidence that statewide policies and practices
expose her to a risk of similar future harms. If state
officials failed and continue to fail to provide her
“reasonable safety and minimally adequate care and
treatment appropriate to [her] age and circumstances”
through the deficient statewide policies and practices
she alleges, the harm to her will have been caused by
those officials. See Lipscomb v. Simmons, 962 F.2d
1374, 1379 (9th Cir. 1992). If those allegedly deficient
policies and practices are abated by an injunction, that
harm may be redressed by a favorable court decision.
B.K. therefore has standing to press the due process
claims she brings on behalf of the General Class.
2.
We next turn to whether B.K. may represent the
General Class consistent with Rule 23. We begin our
analysis with commonality.
Rule 23(a)(2) provides that class members may
sue as representative parties only if “there are
questions of law or fact common to the class.” “That
language is easy to misread, since any competently
crafted class complaint literally raises common
questions.” Wal-Mart Stores, Inc. v. Dukes, 564 U.S.
338, 349 (2011) (alteration and internal quotation
marks omitted) (quoting Richard Nagareda, Class
Certification in the Age of Aggregate Proof, 84 N.Y.U.
L. Rev. 97, 131-32 (2009)). Merely alleging a “violation
of the same provision of law” does not satisfy
commonality. Id. at 350. Instead, the plaintiffs’ claims
must “‘depend upon a common contention’ such that
‘determination of their truth or falsity will resolve an
issue that is central to the validity of each of the claims

App-14
in one stroke.’” Parsons, 754 F.3d at 675 (alteration
omitted) (quoting Wal-Mart, 564 U.S. at 350). “What
matters to class certification is not the raising of
common questions—even in droves—but, rather the
capacity of a classwide proceeding to generate common
answers apt to drive the resolution of the litigation.”
Id. (internal quotation marks, alterations, and
emphasis omitted) (quoting Wal-Mart, 564 U.S. at
350). “[W]here the circumstances of each particular
class member vary but retain a common core of factual
or legal issues with the rest of the class, commonality
exists.” Id. (quoting Evon v. Law Offices of Sidney
Mickell, 688 F.3d 1015, 1029 (9th Cir. 2012)).
“[I]n all class actions, commonality cannot be
determined without a precise understanding of the
nature of the underlying claims.” Id. at 676. “[T]o
assess whether the putative class members share a
common question, the answer to which will resolve an
issue that is central to the validity of each one of the
class member’s claims, we must identify the elements
of the class member’s case-in-chief.” Id. (internal
quotation marks and alterations omitted) (quoting
Stockwell v. City and Cty. of San Francisco, 749 F.3d
1107, 1114 (9th Cir. 2014)).
Here, B.K. seeks to press two due process claims
on behalf of the General Class. Due process requires
the state to provide children in its care “reasonable
safety and minimally adequate care and treatment
appropriate to the age and circumstances of the child.”
Lipscomb, 962 F.2d at 1379. To prevail on a claim for
failure to meet this duty, a plaintiff must prove that
state officials acted with such deliberate indifference
to the plaintiffs’ liberty interest that their actions

App-15
“shock the conscience.” Tamas v. Dep’t of Soc. &
Health Servs., 630 F.3d 833, 844 (9th Cir. 2010)
(quoting Brittain v. Hansen, 451 F.3d 982, 991 (9th
Cir. 2006)). This standard requires proof of two facts:
(1) an objectively substantial risk of harm, and (2) the
official’s subjective awareness of that risk. Id. at 845.
The second part may be proven by showing (1) that the
official was aware of facts from which an inference of
risk may be drawn and that the official made that
inference, (2) that the official was aware of facts from
which an inference of risk may be drawn and that any
reasonable official would have been compelled to draw
that inference, or (3) that the risk of harm is obvious.
Id.
Based on the nature of the plaintiffs’ due process
claims and the scope of the class certified, the district
court here did not abuse its discretion by determining
that commonality exists. We have previously
recognized in the Eighth Amendment context that a
state’s policies and practices can expose all persons
within its custody to a substantial risk of harm, which
is the legal standard required by this due process
claim. In Parsons v. Ryan, we held that a class of “all
prisoners who are now, or will in the future be,
subjected to the medical, mental health, and dental
care policies and practices of the ADC [Arizona
Department
of
Corrections]”
had
sufficient
commonality
because
“[t]he
putative
class . . . members thus all set forth numerous
common contentions whose truth or falsity can be
determined in one stroke: whether the specified
statewide policies and practices to which they are all
subjected by ADC expose them to a substantial risk of
harm.” 754 F.3d at 678. We explicitly rejected the

App-16
reasoning pressed on us by the Directors here: that
“plaintiffs’ claims a[re] ultimately little more than a
conglomeration of many such individual claims,
rather than . . . a claim that central policies expose all
inmates to a risk of harm.” Id. at 675 n.17. Thus, it did
not matter whether each individual prisoner had
already been harmed by falling sick and receiving
inadequate care, but whether every prisoner, solely by
virtue of being in Arizona’s prisons, was at substantial
risk of future harm. Id. at 678. Because every prisoner
in the class was exposed, “as a result of specified
statewide ADC policies and practices that govern the
overall conditions of health care services and
confinement, to a substantial risk of serious future
harm to which the defendants are allegedly
deliberately indifferent . . . every inmate suffer[ed]
exactly the same constitutional injury.” Id. The
“policies and practices [we]re the ‘glue’ that h[eld]
together the putative class,” because “either each of
the policies and practices is unlawful as to every
inmate or it is not.” Id. 3
The same reasoning applies here. The district
court
properly
grounded
its
commonality
determination in the constitutionality of statewide
policies and practices, which is a “common question of
Some of the policies and practices alleged in Parsons included:
“creation of lengthy and dangerous delays in receiving care and
outright denials of health care; . . . a practice of employing
insufficient health care staff; . . . failure to provide prisoners with
care for chronic diseases and protection from infectious
diseases; . . . denial of medically necessary mental health
treatment . . . and . . . denial of basic mental health care to
suicidal and self-harming prisoners.” Parsons, 754 F.3d at 664
(internal quotation marks and alterations omitted).
3

App-17
law or fact” that can be litigated in “one stroke.” See
Wal-Mart, 564 U.S. at 350. Specifically, the district
court identified the following “statewide practices
affecting the proposed General Class”: (1) failure to
provide timely access to health care, including
comprehensive evaluations, timely annual visits,
semiannual preventative dental health care, adequate
health assessments, and immunizations; (2) failure to
coordinate physical and dental care service delivery;
(3) ineffective coordination and monitoring of DCS
physical and dental services; (4) overuse of congregate
care for children with unmet mental needs;
(5) excessive caseworker caseloads; (6) failure to
investigate reports of abuse timely; (7) failure to
document “safety assessments”; (8) failure to close
investigations timely; and (9) investigation delays.
Regardless whether any of these policies are
ultimately found unconstitutional such that the
plaintiffs prevail on the merits, their constitutionally
can properly be litigated in a class setting. Thus, as in
Parsons, the statewide policies and practices are the
“glue” that holds the class together. See 754 F.3d at
678.
The Directors do not seriously dispute the
adequacy of the General Class in this regard. At oral
argument, counsel for the Directors conceded that
they were not challenging the district court’s
application of Parsons, but the validity of Parsons
itself. That argument is beyond the scope of this
panel’s authority and we will not address it. See Miller
v. Gammie, 335 F.3d 889, 899-900 (9th Cir. 2003) (en
banc) (holding that circuit precedent may be
overturned only en banc, with exceptions that do not
apply here). We therefore conclude that the district

App-18
court did not abuse its discretion by concluding that
commonality existed.
3.
We next address typicality. Rule 23(a)(3) provides
that class members may sue as representative parties
only if “the claims or defenses of the representative
parties are typical of the claims or defenses of the
class.” The named plaintiff’s representative claims are
“typical” if they are “reasonably coextensive with those
of absent class members; they need not be
substantially identical.” Parsons, 754 F.3d at 685
(quoting Hanlon v. Chrysler Corp., 150 F.3d 1011,
1020 (9th Cir. 1998)). “The test of typicality is
‘whether other members have the same or similar
injury, whether the action is based on conduct which
is not unique to the named plaintiffs, and whether
other class members have been injured by the same
course of conduct.’” Id. (quoting Hanon v.
Dataproducts Corp., 976 F.2d 497, 508 (9th Cir.
1992)).
In Parsons, we concluded that the district court
did not abuse its discretion in similar circumstances.
There, we reasoned that (1) “the named plaintiffs are
all inmates in ADC custody” and (2) “[e]ach declares
that he or she is being exposed, like all other members
of the putative class, to a substantial risk of serious
harm by the challenged ADC policies and practices.”
Id. Based on those facts, we concluded that
The named plaintiffs thus allege “the same or
a similar injury” as the rest of the putative
class; they allege that this injury is a result of
a course of conduct that is not unique to any
of them; and they allege that the injury

App-19
follows from the course of conduct at the
center of the class claims.
Id. (alteration omitted) (quoting Hanon, 976 F.2d at
508).
Once more, the same reasoning applies here. B.K.
is a child in Arizona’s custody. The members of the
General Class are children who are or will be in
Arizona’s custody. B.K. has demonstrated, not merely
through allegations but through raw data, expert
reports, deposition testimony, and DCS materials,
that she is subject to statewide policies and practices
that apply equally to every member of the class. By
defining her claim based on the risk of harm caused by
these policies—a cognizable constitutional injury
under our precedent—B.K. has demonstrated that
class members have similar injuries, based on conduct
that is not unique to her, and caused by the same
injurious course of conduct. See id.
The Directors counter that B.K., and in fact any
class representative, remains atypical because the
class is internally in conflict. Citing typicality’s
purpose of “assur[ing] that the interest of the named
representative aligns with the interests of the class,”
Stearns v. Ticketmaster Corp., 655 F.3d 1013, 1019
(9th Cir. 2011) (quoting Wolin v. Jaguar Land Rover
N. Am., 617 F.3d 1168, 1175 (9th Cir. 2010)), the
Directors argue that class representatives will seek to
prioritize their own desired reforms to Arizona’s foster
care system at the expense of other possibilities. This
is not necessarily true, cf. Peralta v. Dillard, 744 F.3d
1076, 1083 (9th Cir. 2014) (en banc) (“Lack of
resources is not a defense to a claim for prospective
relief because prison officials may be compelled to

App-20
expand the pool of existing resources in order to
remedy continuing Eighth Amendment violations”),
but—even were we to agree with the Directors’
argument in principal—it would not be enough for us
to deem the district court’s contrary decision a legal
error or “a clear error of judgment.” See Sali, 909 F.3d
at 1002. B.K.’s claim is reasonably coextensive with
absent class members’ claims, and that is sufficient.
The district court did not abuse its discretion by
determining that the named plaintiffs were typical of
the class.
4.
Finally, we address uniform injunctive relief.
Civil Rule 23(b)(2) provides that “[a] class action may
be maintained if . . . the party opposing the class has
acted or refused to act on grounds that apply generally
to the class, so that final injunctive relief or
corresponding declaratory relief is appropriate
respecting the class as a whole.” “The key to the (b)(2)
class is the ‘indivisible nature of the injunctive or
declaratory remedy warranted—the notion that the
conduct is such that it can be enjoined or declared
unlawful only as to all of the class members or as to
none of them.’” Wal- Mart, 564 U.S. at 360 (quoting
Nagareda, 84 N.Y.U. L. Rev. at 132). “In other words,
Rule 23(b)(2) applies only when a single injunction or
declaratory judgment would provide relief to each
member of the class. It does not authorize class
certification when each individual class member
would be entitled to a different injunction.” Id.
(emphasis in original omitted).
In Parsons, we concluded that the district court
did not abuse its discretion by certifying a Rule

App-21
23(b)(2) class when the plaintiffs requested the
defendants be ordered “to develop and implement, as
soon as practical, a plan to eliminate the substantial
risk of serious harm that prisoner Plaintiffs and
members of the Plaintiff Class suffer due to
Defendants’ inadequate medical, mental health, and
dental care.” 754 F.3d at 687. Rejecting the
defendants’ argument that every individual inmate
required an individual injunction, we explained that
Rule 23(b)(2)’s requirements are “unquestionably
satisfied when members of a putative class seek
uniform injunctive or declaratory relief from policies
or practices that are generally applicable to the class
as a whole.” Id. at 688. Thus, because “all members of
the putative class and subclass [we]re allegedly
exposed to a substantial risk of serious harm by a
specified set of centralized ADC policies and practices
of uniform and statewide application,” the defendants
had “acted or refused to act on grounds that apply
generally to the class.” Id. (quoting Fed. R. Civ. P.
23(b)(2)).
Once more, the same reasoning applies here. The
plaintiffs have not brought a concatenation of
individual claims that must be redressed through
individual injunctions; they have brought unified
claims that “a specified set of centralized [DCS]
policies and practices of uniform and statewide
application” have placed them at a substantial risk of
harm. See id. A single, indivisible injunction ordering
state officials to abate those policies and practices
“would provide relief to each member of the class,”
thus satisfying Rule 23(b)(2). See Wal-Mart, 564 U.S.
at 360.

App-22
The Directors’ arguments to the contrary do not
convince us. The Directors first argue that no
injunction could apply to all plaintiffs in the general
class because different foster children face different
potential harms, thus having different competing
interests, and thus needing different injunctive relief.
But this argument improperly assumes that abating
the plaintiffs’ specified policies and practices will be
an either-or situation where only some (or zero) class
members receive their desired relief. That is incorrect,
for two reasons. First, class certification is not a
decision on the merits, and the plaintiffs will only be
entitled to injunctive relief if such relief is necessary
to redress the constitutional violations they actually
prove at trial. Second, even if abating two or more
unconstitutional policies is impossible with limited
funds, state officials “may be compelled to expand the
pool of existing resources in order to remedy
continuing [constitutional] violations.” Peralta, 744
F.3d at 1083. For instance, the district court could
enjoin DCS to hire more caseworkers in order to meet
health care delivery deadlines in a manner that
ensures the plaintiffs receive timely medical
evaluations and care. Cf. Parsons, 754 F.3d at 689
(“For example, every inmate in ADC custody is
allegedly placed at risk of harm by ADC’s policy and
practice of failing to employ enough doctors—an injury
that can be remedied on a class-wide basis by an
injunction that requires ADC to hire more doctors”).
Thus, any future lack of resources or other federalism
concerns invoked by the prospect of injunctive relief go
only to the ultimate scope of the injunction. They do
not per se forbid the district court from certifying a
Rule 23(b)(2) class.

App-23
The Directors next argue that the district court
erred because the plaintiffs failed to provide a specific
injunction that could satisfy Rule 23(b)(2) and
Rule 65(d). This argument has no basis in existing
law, whether in the text of the Federal Rules or in our
precedent. Plaintiffs do not need to specify the precise
injunctive relief they will ultimately seek at the class
certification stage. Instead, as we have explained
before, Rule 23(b)(2)
ordinarily will be satisfied when plaintiffs
have described the general contours of an
injunction that would provide relief to the
whole class, that is more specific than a bare
injunction to follow the law, and that can be
given greater substance and specificity at an
appropriate stage in the litigation through
fact-finding,
negotiations,
and
expert
testimony.
Parsons, 754 F.3d at 689 n.35. In this case, the
“general contours of an injunction” are enjoining DCS
to abate the nine policies identified by the district
court as amenable to class-wide litigation. That was
enough. A more specific injunction will depend on
further fact-finding and what claims the plaintiffs
actually prove through further litigation.
In sum, the district court did not err or abuse its
discretion in its rulings on standing, commonality,
typicality, and uniform injunctive relief. We affirm the
district court’s certification of the General Class.
B.
We next consider the Non-Kinship Subclass. The
district court certified a class of “[a]ll members in the
General Class who are not placed in the care of an

App-24
adult relative or person who has a significant
relationship with the child.” As with the General
Class, the plaintiffs’ legal theory was that this
subclass was denied due process of law under the
Fourteenth Amendment when Director McKay’s
statewide practices and policies placed them at
substantial risk of harm.
We begin our Non-Kinship Subclass inquiry with
standing. Once more, the relevant question is whether
B.K. has standing to challenge the allegedly
unconstitutional policies and practices affecting the
subclass. See Melendres, 784 F.3d at 1262. Once more,
we conclude that B.K. has standing to bring this
subclass’s due process claim. B.K. has alleged and
presented evidence that she has been separated from
her siblings, prevented from seeing her mother, placed
in an inappropriate group home, and placed in
temporary housing for long periods of time. B.K. has
also presented evidence, as we have previously
discussed, that she has serious behavioral and medical
concerns requiring attention from her custodian. B.K.
has thus alleged and provided evidence that, as a child
in DCS custody, she faces a risk of harm from DCS
policies and practices that inadequately provide for
children who do not have available kinship
placements. Consistent with “the manner and degree
of evidence required at th[is] . . . stage[] of litigation”
to prove standing, Lujan, 504 U.S. at 561, these
allegations and evidence describe imminent, concrete
injuries—fairly traceable to the alleged state-wide
practices and redressable by abatement of those
practices. The district court did not err by concluding
that B.K. has standing.

App-25
There is little else to add about this subclass that
we have not already said about the General Class. The
Directors’ brief does not suggest a reason why the
Non-Kinship Subclass would fail if the General Class
succeeds, and we “will not manufacture arguments for
an appellant.” Greenwood v. FAA, 28 F.3d 971, 977
(9th Cir. 1994). We therefore confine our review to
whether, under the same challenges articulated in our
foregoing discussion of the General Class, the district
court abused its discretion by certifying the NonKinship Subclass.
We conclude that the district court did not abuse
its discretion. The district court identified the
following statewide practices affecting the NonKinship Subclass: (1) excessive use of emergency
shelters and group homes; (2) unnecessary separation
of siblings; and (3) placement of children far from
home. As with the General Class, commonality,
typicality, and uniformity of injunctive relief were
satisfied by identifying these practices because the
district court will be able to determine whether the
Directors have an unconstitutional practice of placing
children in substantial risk of harm by evaluating
these practices as a whole, rather than as to each
individual class member. For instance, if the plaintiffs
prove that state officials have a practice of placing
children in emergency shelters for months, and that
such a practice is unconstitutional, it might declare
that practice unconstitutional. The district court
might then enjoin the Directors to take concrete steps
to meet specific placement deadlines, such as by
expanding the number of foster homes. Cf. Parsons,
754 F.3d at 689 (“For example, every inmate in ADC
custody is allegedly placed at risk of harm by ADC’s

App-26
policy and practice of failing to employ enough
doctors—an injury that can be remedied on a classwide basis by an injunction that requires ADC to hire
more doctors”). That demonstrates the requisite
commonality, typicality, and uniformity of injunctive
relief. It does not matter whether, at this “tentative,
preliminary, and limited” phase, see Sali, 909 F.3d at
1004 (internal quotation marks and citations omitted),
proving the unconstitutionality of these practices will
be difficult or not. It also does not matter whether
crafting appropriate injunctive relief will be difficult
or not. Those merits questions, while not irrelevant to
the class certification inquiry, do not preclude
certification as a matter of law unless proving the
answer to a common question or crafting uniform
injunctive relief will be impossible. Otherwise, we
commit class certification decisions to the district
court’s discretion, and we hold there is no “clear error
of judgment” here that shows an abuse of that
discretion. See id. at 1002.
We therefore affirm the district
certification of the Non-Kinship Subclass.

court’s

C.
We last consider the Medicaid Subclass. The
district court certified a class of “[a]ll members of the
General Class who are entitled to early and periodic
screening, diagnostic, and treatment services under
the federal Medicaid statute.” The Directors argue
that this subclass lacks commonality, typicality,
uniformity of injunctive relief, and that the class lacks
standing. The Directors also argue that the plaintiffs
have failed to prove sufficiently the factual bases for
those requirements.

App-27
1.
Once again, we begin our analysis with standing.
The relevant question is whether B.K. has suffered, or
will imminently suffer, a concrete injury, caused by
the Directors’ failure to timely provide her with
EPSDT services, and redressable by a favorable court
decision. See Melendres, 784 F.3d at 1262. These
elements must be supported by “the manner and
degree of evidence required at th[is] successive stage[]
of the litigation,” Lujan, 504 U.S. at 561, i.e., tentative
class certification. At this “tentative, preliminary, and
limited” stage we have held strictly admissible
evidence is not required, see Sali, 909 F.3d at 1004
(internal quotation marks and citations omitted), and
we have indicated that plaintiffs can meet their
evidentiary burden in part through allegations when
the allegations are detailed and supported by
additional materials, see Parsons, 754 F.3d at 683
(concluding that plaintiffs met evidentiary burden
through “four thorough and unrebutted expert
reports, the detailed allegations in the 74-page
complaint, hundreds of internal ADC documents, and
declarations by the named plaintiffs”).
Here, B.K. alleges that she has been “deprived of
needed physical and mental health care,” including by
failures to ensure that she obtained glasses, to ensure
she received orthopedic shoes, to have her seen by a
dentist, to provide her with psychological evaluations,
and to provide her with counseling. She also alleges
that the Directors have “a practice of failing to provide
members of the Medicaid Subclass with the screening,
diagnostic and treatment services required under the
EPSDT provisions of the Medicaid Act.” These

App-28
allegations, if true, would demonstrate a concrete
injury caused by the failure to receive EPSDT services
timely as well as “a sufficient likelihood that [s]he will
again be wronged in a similar way,” which would be
redressable by an injunction ordering the Directors to
abate the policies and/or practices that caused the
delivery failure. See Haro v. Sebelius, 747 F.3d 1099,
1108 (9th Cir. 2014) (quotation marks and citation
omitted); see also Armstrong v. Davis, 275 F.3d 849,
861 (9th Cir. 2001) (abrogated on other grounds by
Johnson v. California, 543 U.S. 499 (2005))
(explaining that for purposes of standing to seek
injunctive relief, “the plaintiff may demonstrate that
the harm is part of a pattern of officially sanctioned
behavior, violative of the plaintiffs’ federal rights,”
and that “where the defendants have repeatedly
engaged in the injurious acts in the past, there is a
sufficient possibility that they will engage in them in
the near future” (alterations and quotation marks
omitted)). However, at this stage of the litigation
allegations alone are insufficient to meet B.K.’s
burden. We therefore examine whether she has
submitted sufficient evidence to support her standing
to bring this claim.
The confidential medical and placement evidence
in the record is thin, but we conclude that it is
sufficient to corroborate the allegations at this stage.
B.K.’s allegations are supported by materials
suggesting that she has in fact been denied the
services she alleges she is entitled to but has not
received. B.K. has also submitted evidence suggesting
that these practices have continued over time and may
occur again. B.K. therefore has standing to bring her
Medicaid claim. To the extent the Directors are correct

App-29
that these facts are wrong, that issue may be
considered by the district court on remand. On appeal,
however, the materials in the record adequately
support B.K.’s standing. We therefore proceed to
considering whether the Medicaid Subclass was
properly certified with B.K. as class representative.
2.
We begin our class certification analysis with
commonality. The Medicaid Subclass poses different
questions from the General Class and Non-Kinship
Subclass in this regard. Unlike the due process claims,
which were clearly alleged on a substantial risk of
harm theory, the foundation of the plaintiffs’ legal
theory for the Medicaid claim was somewhat opaque
at class certification, and it remains opaque on appeal.
In addition, while the ultimate success of any Medicaid
theory is irrelevant at this stage, merits questions
nonetheless matter at class certification to the extent
necessary to assess whether Rule 23 has been
satisfied. See Wal-Mart, 564 U.S. at 351. We therefore
cannot affirm the Medicaid Subclass certification
without first carefully examining the nature of the
plaintiffs’ claim under the Medicaid Act.
As we explained in our recitation of the facts,
Medicaid is “a cooperative federal-state program
through which the federal government provides
financial assistance to states so that they can furnish
medical care to low-income individuals.” Cal. Ass’n of
Rural Health Clinics, 738 F.3d at 1010. States operate
Medicaid plans that must conform with the federal
Medicaid statutes and regulations, and in certain
instances beneficiaries can enforce those federal
requirements through a private action. Id. at 1010,

App-30
1013. One of these federal requirements is that state
plans must provide medical assistance to children
within their care. 42 U.S.C. § 1396a(a)(10)(A)(i)(I).
This medical assistance includes EPSDT services, id.
§ 1396d(a)(4)(B), which are defined to include regular
screenings, vision services, dental services, hearing
services, and “[s]uch other necessary health care,
diagnostic services, treatment, and other measures
described in subsection (a) of [section 1396d] to correct
or ameliorate defects and physical and mental
illnesses and conditions discovered by the screening
services,” id. § 1396d(r). States must ensure that
EPSDT services provided are “reasonably effective,”
and, while they may delegate provision of such
services to other organizations, “the ultimate
responsibility to ensure treatment remains with the
state.” Katie A., ex rel. Ludin v. Los Angeles Cty., 481
F.3d 1150, 1159 (9th Cir. 2007). States must also
ensure that children receive EPSDT services
“promptly” and “without any delay caused by the
agency’s administrative procedures.” 42 C.F.R.
§ 435.930(a).
In their complaint, the plaintiffs alleged that the
Directors violated the Medicaid Act by failing to
provide EPSDT services timely. Although alleged as
one claim, there are two possible legal theories that
could support it. First, the plaintiffs might
demonstrate that the Directors failed to provide
statutorily mandated EPSDT services. See Katie A.,
481 F.3d at 1159. Second, the plaintiffs might
demonstrate that, even if all required services were
eventually provided, the Directors failed to provide the
services with reasonable promptness. See 42 C.F.R.
§ 435.930(a); see also Kessler v. Blum, 591 F. Supp.

App-31
1013, 1032-33 (S.D.N.Y. 1984) (certifying class based
on unreasonably long delays in providing services to
all New York State residents). The plaintiffs here
alleged both that the Directors had a practice of failing
to provide EPSDT services and a practice of failing to
provide EPSDT services with reasonable promptness,
and the district court reasoned that commonality
existed because it could adjudicate whether Arizona’s
“foster care system’s practices establish a pattern of
non-compliance.”
We hold that the district court abused its
discretion by certifying the Medicaid Subclass based
on an apparent misconception of the legal framework
for such a claim. Throughout this litigation, the
plaintiffs’ class certification argument has rested on a
misunderstanding of the Medicaid Act. In the Eighth
Amendment context, and in the due process context
relevant to the General Class and Non- Kinship
Subclass, proving a substantial risk of harm is all that
is necessary to prove the claim. See Parsons, 784 F.3d
at 677 (“[A] prison official’s deliberate indifference to
a substantial risk of serious harm to an inmate
violates the Eighth Amendment” (quotation marks
and citation omitted)). The same is not true of a claim
under the Medicaid Act, which must be based on acts
or omissions by the state that actually violate the
requirements imposed by the Medicaid Act. Yet the
plaintiffs have both here and in the district court
premised their arguments on the reasoning that
proving risk alone establishes an EPSDT claim.
Nothing in the text of the Medicaid Act or its
accompanying regulations supports this approach
because neither suggests that being at risk of not
receiving Medicaid services is itself a Medicaid

App-32
violation. The most natural reading of the Act and our
precedents is that a violation occurs when EPSDT
services have failed to be provided in a timely manner.
See Katie A., 481 F.3d at 1157 (“In general, the EPSDT
provisions require only that the individual services
listed in § 1396d(a) be provided”); 42 C.F.R.
§ 435.930(a). The plaintiffs have thus conflated the
commonality analysis for their due process claims
with the commonality analysis for their Medicaid
claims by erroneously importing the “substantial risk
of harm” standard from Parsons without considering
the distinct nature of the Medicaid Act.
The district court’s analysis on this point appears
to have followed the same reasoning as was offered by
the plaintiffs. The district court did discuss
commonality in this case by referring to common
questions that were tethered to the Medicaid Act in
particular. But the court identified those common
questions as “whether [DCS and AHCCCS’s]
practices . . . failed to provide timely and adequate
access to . . . services; [] failed to coordinate care to
ensure timely medically necessary . . . treatment . . . ;
and [] failed to build and maintain an adequate
capacity and infrastructure of mental health providers
and therapeutic placements.” Without further
findings on the policies or practices that caused these
failures, it is unclear whether the Medicaid claim can
be litigated class-wide, because it is not clear whether
these failures caused the same deprivations of services
or risks of such deprivations across the whole
subclass, or whether some categories of children were

App-33
deprived services while others were not. 4 The district
court’s class certification order thus rests on a legal
error, which always constitutes an abuse of discretion.
See Sali, 909 F.3d at 1002.
The plaintiffs nonetheless contend that class
certification should be upheld because a similar, but
distinct, risk theory supports the class. Specifically,
the plaintiffs argue that, because a plaintiff can have
standing to challenge a statutory violation before the
violation has occurred, see Cent. Delta Water Agency v.
United States, 306 F.3d 938, 949 (9th Cir. 2002), the
class may be certified based on a common “significant
risk” of an imminent Medicaid violation to all class
members, see id. (identifying “significant risk” as the
correct standard when a plaintiff challenges a future
statutory violation). Under this theory, the plaintiffs
argue, it does not matter whether risk proves a
completed Medicaid violation because they can obtain
injunctive relief based on risk alone.
As a conceptual matter, we agree with the
plaintiffs that Rule 23’s commonality requirement can
be satisfied in a statutory case by a common risk of a
future violation that flows from the same state-wide
policy or practice. As explained above, the relevant
question for commonality is whether every child in the
Relatedly, it is not clear that the district court specifically
considered whether B.K. is typical of those in the Medicaid
Subclass, and thus whether Rule 23’s typicality requirement is
satisfied with respect to the Medicaid claim. The court concluded
only that “every child in the foster care system under state
custody is highly likely to require medical care” without
addressing whether every other child had, like B.K., been denied
adequate medical care or was subject to an imminent risk of a
statutory violation.
4

App-34
Medicaid Subclass is subjected to the same state-wide
policy or practice that violates the Medicaid Act. 5
There are two ways that this could occur. First, the
policy or practice could be facially invalid, such as by
directly contravening the Medicaid Act. This theory
has not been presented as the basis for commonality
in this case. Second, the policy or practice could expose
every child in the subclass to a significant risk of an
imminent future Medicaid violation. Under this
theory, the plaintiffs are correct that they may
challenge the Medicaid violation before it has taken
place, so long as the requisite “significant risk” exists,
so commonality may exist based on a finding that all
class members are subjected to the same risk. See id.
The plaintiffs’ argument nonetheless fails,
however, because the district court did not make
factual findings or exercise its discretion based on this
understanding of commonality when it certified the
Medicaid Subclass. Nowhere in its order is there a
factual finding that every subclass member was
subject to an identical “significant risk” of a future
Medicaid violation that would support injunctive
relief. True, we could perhaps infer that such a finding
was made because the district court exercised its
discretion to certify the class after correctly explaining
that “central to the claim here is the question of
whether practices by [DCS] and AHCCCS failed to
adhere to the Medicaid statute.” But we are skeptical
5 By this we do not hold, and our opinion should not be read to
imply, that the plaintiffs must show that they will prevail on
their claim of a Medicaid violation at the class certification stage.
Rather, they must show only that, if they do prevail on the
merits, they will be able to prevail class-wide.

App-35
we should do so in light of the legal error we have
identified, which appears intertwined with the district
court’s decision to certify this subclass. Moreover, as
an appellate body we cannot presume that the district
court would have made this finding or exercised its
discretion to certify the class had it considered this
legal theory for commonality, and we will not supplant
its discretion by making that determination for
ourselves. We therefore vacate the Medicaid Subclass
and remand for further proceedings. 6 We emphasize
The partial dissent argues that vacatur is not warranted
because “errors of law that do not affect the district court’s
discretionary decision can be disregarded.” The partial dissent
thus argues that we should uphold the Medicaid Subclass on the
alternative risk theory presented by the plaintiffs. But, as we
have explained, doing so would substitute the district court’s role
in certifying the class with our role in reviewing certification on
appeal. The record does not permit us to infer what the district
court must have found as to the Medicaid Subclass by
extrapolation from the General Class.
6

The partial dissent suggests that we can make such an
inference because “B.K. challenges the exact same state-wide
policies that create the exact same risk of not receiving the exact
same medical services,” and states that the “only difference”
between the class claims is that “to obtain an injunction under
the Medicaid statute, B.K. does not have to prove deliberate
indifference, as she must to obtain an injunction under the Due
Process Clause.” The plaintiffs’ counsel did make that
representation about the class claims at oral argument. However,
the record belies counsel’s assertion. B.K.’s claim on behalf of the
General Class challenged those harms cognizable under the due
process clause for medical deficiencies and the failure to conduct
timely investigations into reports of abuse or neglect, while B.K.’s
claim on behalf of the Medicaid Subclass challenged those harms
cognizable under the Medicaid Act for EPSDT deficiencies. From
these divergent claimed harms, the district court identified
divergent common questions: the common questions binding the

App-36
that, while we have vacated class certification based
on the nature of the litigation to date, nothing in our
opinion should prevent the district court from making
new factual findings and exercising its discretion to
recertify the Medicaid Subclass on remand, if it
determines that such action would be appropriate.
All parties shall bear their own costs on appeal.
AFFIRMED in part, VACATED in part, and
REMANDED.

General Class were the constitutionality of the Directors’ failure
to provide physical and dental care, failure to provide mental and
behavioral health care, and failure to conduct investigations
timely, while the common questions binding the Medicaid
Subclass were the legality of the Directors’ failure to provide
timely and adequate access to EPSDT services, failure to
coordinate care to ensure timely EPSDT services, and failure to
build and maintain an adequate capacity of mental health
providers and therapeutic placements. The class claims are thus
not the same, and they cannot be treated the same for purposes
of class certification. Only a separate class certification analysis,
recognizing the difference between the due process claims and
the Medicaid claim as we have explained in this opinion, and
making factual findings in conformity with that legal framework,
will ensure that “after a rigorous analysis, . . . the prerequisites
of Rule 23(a) have been satisfied.” See Wal-Mart, 564 U.S. at 35051 (citation omitted).

App-37
ADELMAN, District Judge, concurring in part and
dissenting in part:
I concur in all parts of the majority opinion except
for Part III.C.2, in which the majority concludes that
the district court abused its discretion by certifying
the Medicaid subclass. According to the majority, the
district court abused its discretion because it made an
error of law when it assumed that a state-wide policy
or practice that exposes all members of the proposed
subclass to a substantial risk of not receiving Medicaid
services violates the Medicaid statute. But the answer
to the legal question of whether exposure to a risk of
harm violates the Medicaid statute does not affect
class certification in this case, where the class seeks
only injunctive relief. So the district court’s potential
error of law did not affect its application of the Rule 23
standards, and therefore any such error did not result
in an abuse of discretion. Moreover, the district court
made findings of fact that support its decision to
certify the Medicaid subclass, and those findings are
not clearly erroneous. Accordingly, I would affirm the
district court’s certification of this subclass.
I.
The majority affirms the district court’s
certification of a class of Arizona foster children who
seek to enjoin, under the Due Process Clause, certain
state-wide policies that allegedly expose them to a
substantial risk of not receiving certain medical
services. Oddly, the majority then vacates the district
court’s certification of a subclass of the same children
who seek to enjoin the exact same policies under the
Medicaid statute. Under the majority’s approach, the
district court properly certified, under the Due Process

App-38
Clause, a class of all foster children who challenge the
state’s allegedly subjecting them to a substantial risk
of not receiving “timely access to health care, including
comprehensive evaluations, timely annual visits,
semiannual preventative dental health care, adequate
health assessments, and immunizations.” Maj. op. at
21. Yet the majority concludes that the district court
erred in certifying a subclass of these children who
seek to enjoin the same conduct under the Medicaid
statute, even though Medicaid requires the state to
provide them with those very same medical services.
See 42 U.S.C. § 1396d(r) (defining early and periodic
screening, diagnostic, and treatment services to
include regular health, dental, and vision screening
and appropriate immunizations).
According to the majority, this contradictory
result is required because the district court
misunderstood the difference between a claim under
the Due Process Clause and a claim under the
Medicaid statute. Under the Due Process Clause,
exposure to a substantial risk of harm is itself a
violation of law, even if the harm does not ultimately
occur. Maj. op. at 34. In contrast, under the Medicaid
statute, a violation is not complete until a child is
denied required medical services (or fails to receive the
services at the required time). Id.
I agree with the majority that this is indeed a
difference between a claim under the Due Process
Clause and a claim under the Medicaid statute.
However, this difference has no relevance to class
certification in this case, in which the plaintiffs seek
only injunctive relief. As the majority acknowledges, a
plaintiff may seek injunctive relief to prevent a

App-39
statutory violation before it occurs. Maj. op. at 36. And
that is exactly what the plaintiffs are trying to
accomplish with the Medicaid subclass: they are
trying to prevent Medicaid violations before they
occur. The way they are trying to do this is by
obtaining a single injunction that requires the
defendants to do things, such as hire more
caseworkers, that will ensure that all children receive
the services to which they are entitled under
Medicaid. Thus, the claims of the Medicaid subclass
present common questions that can be answered in
one stroke. For example, either Arizona employs
enough caseworkers to ensure that all children receive
the EPSDT services required by Medicaid, or it does
not; there is no need for a child-by-child inquiry to
determine whether Arizona’s staffing policies expose
all children in Arizona’s custody to a substantial risk
of not receiving those services. Cf. Parsons v. Ryan,
754 F.3d 657, 680 (9th Cir. 2014) (“Either ADC
employs enough nurses and doctors to provide
adequate care to all of its inmates or it does not do so;
there is no need for an inmate-by-inmate inquiry to
determine whether all inmates in ADC custody are
exposed to a substantial risk of serious harm by ADC
staffing policies.”). If the plaintiffs prove that Arizona
does not employ enough caseworkers, then a single
injunction requiring the state to hire more
caseworkers will remove the substantial risk of
Medicaid violations.
The situation would be different if the members of
the Medicaid subclass sought damages. Because
exposing a child to a risk of not receiving required
Medicaid services does not itself violate the child’s
rights under Medicaid, the child could not seek

App-40
damages until services were delayed or denied. But
under the Due Process Clause, the child could seek at
least nominal damages for a past exposure to a
substantial risk of harm. Thus, if the district court had
certified damages classes under both the Due Process
Clause and the Medicaid statute, the majority would
be right to vacate certification of the Medicaid
subclass. To award damages under the Medicaid
statute, the district court would have to review the
facts applicable to each individual class member to
determine whether he or she actually sustained a
Medicaid violation—there would be no common
question that could be answered for all class members
in one stroke. But again, in this case, where the
plaintiffs seek only injunctive relief, there are common
questions that can be answered in one stroke: whether
the challenged policies—including failing to hire
enough caseworkers—subject all children in the foster
care system to a substantial risk of not receiving
required services, such as timely immunizations.
Thus, the difference in what the plaintiffs must show
to prove violations of the Due Process Clause and the
Medicaid statute is not relevant to certification of the
proposed injunction classes.
The majority concludes that vacatur of the
Medicaid subclass is required because Ninth Circuit
cases hold that “an error of law is a per se abuse of
discretion.” Maj. op. at 13. The majority reads too
much into this language. The majority, in effect, reads
this language to mean that if a district judge misstates
any legal principle in the course of stating its reasons
for a discretionary decision, then the appellate court
has no choice but to vacate the decision and remand
for a do-over. But that cannot be what the language

App-41
means. Instead, the language must mean that when a
district court errs in its understanding of the legal
standards that govern its discretionary decision, the
resulting discretionary decision must be viewed as an
abuse of discretion. But errors of law that do not affect
the district court’s discretionary decision can be
disregarded.
For example, if in this case the district court wrote
that the defendants could be liable under the Due
Process Clause if the plaintiffs proved that they were
negligent, the court would have misstated the law, for,
under the Due Process Clause, the defendants could
be liable only if the plaintiffs proved deliberate
indifference. But this error of law would not have
affected the district court’s discretionary decision to
certify the class. That is so because the mental state
for a due-process violation is not an element that
affects commonality or any other class-certification
requirement—the defendant’s mental state is
amenable to class-wide proof regardless of whether it
is negligence or deliberate indifference. Thus, even if
the district court identified the wrong mental state
during class certification, it would not follow that the
court abused its discretion in certifying a class under
the Due Process Clause. Of course, the district court
would commit reversible error if it later granted relief
to the class based on a negligence theory, but in that
case, we would reverse the judgment granting relief to
the class—we would not reverse the district court’s
order certifying the class.
The district court’s supposed legal error in this
case is no different than the district court’s legal error
in my example. Because the Medicaid subclass does

App-42
not seek damages, it does not matter to class
certification that a Medicaid violation does not occur
until services are delayed or denied. Thus, even if the
district court thought that exposure to a risk of not
receiving services violates the Medicaid statute, it
would not have made an error of law that affected its
application of the Rule 23 standards to the facts of this
case.
II.
The majority acknowledges that the district court
identified common questions that are “tethered to the
Medicaid Act in particular.” Maj. op. at 35. But the
majority then faults the district court for failing to
make “further findings” that clarify “whether [the
challenged state-wide policies and practices] caused
the same deprivations of services or risks of such
deprivations across the whole subclass, or whether
some categories of children were deprived of services
while others were not.” Id. at 35. This is a curious
statement. The majority seems to be saying that the
district court failed to find that the challenged policies
expose all children in the Medicaid subclass to a
substantial risk of not receiving timely access to
health care. But that flatly contradicts the majority’s
reasons for affirming the district court’s certification
of the General Class. There, the majority found that
the district court properly certified the General Class
because the question of whether the defendants
“fail[ed] to provide timely access to health care”—and
thus exposed all foster children to a substantial risk of
not receiving that health care—could be answered in
one stroke. Id. at 21. As I noted above, all members of
the proposed Medicaid subclass are also members of

App-43
the General Class, and the health care at issue in the
claims of the General Class are services required by
the Medicaid statute. Thus, if, as the majority
concludes, the district court found that the defendants’
policies and practices expose all children in the
General Class to a substantial risk of not receiving
those services, then it necessarily also found that
those same policies and practices expose all children
in the Medicaid subclass to a substantial risk of not
receiving those services. Therefore, the district court
made the findings necessary to support its decision to
certify the Medicaid subclass.
The majority also expresses concern over whether
the district court made the findings necessary to
support its conclusion that B.K. is typical of those in
the Medicaid subclass. The majority states that the
district court failed to address “whether every other
child had, like B.K., been denied adequate medical
care or was subject to an imminent risk of a statutory
violation.” Id. at 35 n.4. But whether other children in
the class had been denied adequate medical care is
irrelevant, since the class is not seeking to remedy
past violations. Moreover, “imminent risk of a
statutory violation” is a legal concept that governs
standing, not class certification. See, e.g., Lujan v.
Defenders of Wildlife, 504 U.S. 555, 560 (1992). The
majority agrees that because B.K. has standing to
seek injunctive relief on behalf of the Medicaid
subclass, the standing inquiry ends there and there is
no need to separately consider whether each class
member has standing. Maj. op. at 16, 30. Thus, the
majority again contradicts its own reasoning when it
faults this district court for failing to make findings

App-44
showing that every child in the Medicaid subclass is at
“imminent risk” of a Medicaid violation.
I also struggle to discern how, in the majority’s
view, B.K.’s claim for injunctive relief could be
“typical” of the claims of all foster children in Arizona
for purposes of the Due Process Clause but not for
purposes of the Medicaid statute. Again, I emphasize
that, under both the Due Process Clause and the
Medicaid statute, B.K. challenges the exact same
state-wide policies that create the exact same risk of
not receiving the exact same medical services. The
only difference is that, to obtain an injunction under
the Medicaid statute, B.K. does not have to prove
deliberate indifference, as she must to obtain an
injunction under the Due Process Clause. It is thus
logically impossible for B.K.’s claim to be typical of
those in the class for purposes of the Due Process
Clause but not for purposes of the Medicaid statute.
III.
The majority agrees that “Rule 23’s commonality
requirement can be satisfied in a statutory case by a
common risk of a future violation that flows from the
same state-wide policy or practice.” Maj. op. at 36. In
this case, the members of the Medicaid subclass allege
that they are subject to a common risk of not receiving
required Medicaid services that flows from the same
state-wide policies and practices, including failing to
hire enough caseworkers. Yet here the majority
reasons that we must vacate the district court’s
certification of the Medicaid subclass “because the
district court did not make factual findings or exercise
its discretion based on this understanding of

App-45
commonality when it certified the Medicaid subclass.”
Maj. op. at 36-37.
I am not sure what the majority means when it
says that the district court did not “exercise its
discretion based on this understanding of
commonality.” The district court exercised its
discretion to certify a subclass of all children who are
eligible for certain Medicaid services after finding that
the subclass’s claim presents a common question that
can be answered for all subclass members in one
stroke. The majority does not conclude that, in making
this finding, the district court erroneously applied
Wal-Mart Stores, Inc. v. Dukes, 564 U.S. 338 (2011), or
any other case on commonality. Thus, the district
court had a proper “understanding of commonality”
when it exercised its discretion to certify this subclass.
Moreover, the district court actually made the
findings of fact necessary to support its finding of
commonality for the Medicaid subclass. The court
found that the plaintiffs were challenging “several
statewide practices affecting the proposed Medicaid
Subclass,” including excessive caseworker caseloads
and failure to properly coordinate services and
monitor service providers. The court also found that
the validity of these practices could be determined in
one stroke and without making individualized
inquiries into any specific child’s medical diagnosis or
treatment. Thus, the district court correctly
determined that the subclass could be certified for
purposes of seeking injunctive relief against the
challenged policies.
Although the majority correctly notes that the
district court did not expressly state that every

App-46
subclass member is subject to an identical “significant
risk” of a future Medicaid violation, this does not
require that we vacate certification of the subclass.
Like “imminent risk,” “significant risk” is a legal
concept that governs standing, not class certification,
see Cent. Delta Water Agency v. United States, 306
F.3d 938, 949 (9th Cir. 2002), and the majority agrees
that B.K. has standing to seek injunctive relief against
the challenged state-wide policies under the Medicaid
statute. The majority expressly states that the district
court correctly found that B.K. has standing to seek
injunctive relief against the defendants’ policies
because they expose her to a risk of not receiving
adequate medical care in the future. Maj op. 17. Thus,
the majority agrees that the district court made the
factual findings necessary to support standing.
As for class certification, there is no requirement
that the district court find that every subclass member
is exposed to an identical significant risk of a future
Medicaid violation. What the district court must find
is that the plaintiffs’ claim involves an allegation that
all subclass members are exposed to a risk of a future
Medicaid violation, and that the truth of this
allegation can be decided for all subclass members in
a single stroke. See Parsons, 754 F.3d at 678
(identifying the “common contentions” as “whether the
specified statewide policies and practices” to which the
class members are all subjected “expose them to a
substantial risk of harm”). Obviously, the defendants
dispute that their policies are deficient and will try to
show during the merits phase of the case that they
properly care for all children and therefore expose
none of them to a substantial risk of not receiving
medical care. The plaintiffs do not have to prove, at

App-47
the class-certification stage, that the defendants’
policies are in fact deficient. What the plaintiffs must
do at class certification is show that the question of
whether the policies are deficient can be resolved on a
class-wide basis. And here, the district court found
that the plaintiffs did that. The court expressly found
that “[e]ven if health issues may differ, every child in
the [DCS] custody is necessarily subject to the same
medical, mental health, and dental care policies and
practices.” The court noted that “[a]ny one child could
easily fall ill, be injured, need treatment, require a
diagnostic, need emergency care, crack a tooth, or
require mental health treatment.” Thus, the district
court found that “every single child in the foster care
system faces a substantial risk of serious harm” if DCS
policies fail to ensure the delivery of appropriate
medical care to children in the system.
It is true that the district court made the above
findings in the context of certifying the General Class.
But to repeat: every child in the Medicaid subclass is
also a member of the General Class, and both classes
challenge the exact same policies involving the exact
same medical services. Thus, if the challenged policies
subject every child in the General Class to a
substantial risk of not receiving medical services, they
necessarily also subject every child in the Medicaid
subclass to a substantial risk of not receiving those
services. Therefore, the district court’s fact-finding
supports its certification of both the General Class and
the Medicaid subclass.
IV.
In sum, the district court concluded that the
claims of the Medicaid subclass involve common

App-48
contentions that may be resolved in one stroke:
whether the challenged state-wide policies and
practices subject all subclass members to a substantial
risk of not receiving services required by the Medicaid
statute. In reaching this conclusion, the district court
did not err in applying the commonality standard,
base its conclusion on clearly erroneous findings of
fact, or otherwise abuse its discretion. Accordingly, I
respectfully dissent from the majority’s vacatur of the
district court’s certification of the Medicaid subclass.

App-49
Appendix B
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________
No. 17-17501
________________
B.K., by her next friend Margaret Tinsley, B.T., by
their next friend Jennifer Kupiszewski; A.C.-B., by
their next friend Susan Brandt; M.C.-B., by their next
friend Susan Brandt; D.C.-B., by their next friend
Susan Brandt; J.M., by their next friend Susan Brandt,
Plaintiffs-Appellees,
v.
JAMI SNYDER, in his official capacity as Director of
the Arizona Health Care Cost Containment System,
Defendant-Appellant.
________________
No. 17-17502
________________
B.K., by her next friend Margaret Tinsley, B.T., by
their next friend Jennifer Kupiszewski; A.C.-B., by
their next friend Susan Brandt; M.C.-B., by their next
friend Susan Brandt; D.C.-B., by their next friend
Susan Brandt; J.M., by their next friend Susan Brandt,
Plaintiffs-Appellees,
v.
GREGORY MCKAY, in his official capacity as Director
of the Arizona Department of Child Safety,
Defendant-Appellant.
________________

App-50
________________
Filed: July 15, 2019
________________
Before: J. Clifford Wallace and Michelle T. Friedland,
Circuit Judges, and Lynn S. Adelman, *
District Judge.
________________
ORDER
________________
Defendant-Appellant
McKay
petitions
for
rehearing en banc. Defendant-Appellant Snyder
petitions for panel rehearing and rehearing en banc.
The panel has voted to deny Defendant-Appellant
Snyder’s petition for panel rehearing. Judge Friedland
votes to deny the petition for rehearing en banc, and
Judge Wallace and Judge Adelman so recommend.
The petitions for rehearing en banc have been
circulated to the full court, but no judge of the court
has requested a vote on rehearing en banc. DefendantAppellants’ petitions for rehearing and rehearing en
banc are therefore DENIED.

* The Honorable Lynn S. Adelman, United States District
Judge for the Eastern District of Wisconsin, sitting by
designation.

App-51
Appendix C
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA
________________
No. CV-15-00185
________________
MARGARET TINSLEY, et al.,
Plaintiffs,
v.
CHARLES FLANAGAN, et al.,
Defendants.
________________
Filed: Sept. 30, 2017
________________
ORDER
________________
Named Plaintiffs B.K., B.T., A.C.-B., M.C.-B.,
D.C.-B., and J.M. (“Named Plaintiffs”), minors in the
custody of the Arizona foster care system, filed a
motion to certify this matter as a class action with
subclasses under Rule 23(b)(2). (Doc. 234.) Defendants
Gregory McKay and Thomas Betlach opposed. (Docs.
245, 248.) And Named Plaintiffs replied. (Doc. 254.)
For the following reasons, the Court will grant the
motion for class certification.
I.

BACKGROUND

Named Plaintiffs filed this civil rights class action
on behalf of children in the Arizona foster care
custody, claiming the Arizona foster care system

App-52
violates the U.S. Constitution and the federal
Medicaid Act. (Doc. 37.) They allege Arizona’s failure
to remedy problems within its system exposed them
and all other foster children to harm or unreasonable
risk of harm while in the state’s care, in violation of
their federal rights. (Id.)
A. Role of Child Welfare Agencies
“The primary purpose of [Arizona Department of
Child Safety (“DSC”)] is to protect children.” A.R.S.
§ 8-451(B). In Arizona, DSC has significant control
over foster children. It is charged with placing
children in safe living environments and coordinating
with the Arizona Health Care Cost Containment
System (“AHCCCS”) and others to provide children
with court-ordered healthcare and other services
aimed at promoting the safety and well-being of all
children. See A.R.S. §§ 8-451(B)(2), (4); 8-457; 8-512. If
a juvenile court assigns custody of a removed child to
DCS, the agency may subsequently place the child
with a parent or relative, in a licensed foster home,
therapeutic foster care, group home, or a residential
treatment facility. A.R.S. § 8-514(A), (B).
DCS and its subdivisions determine the eligibility
and licensing procedures for foster parents and foster
homes, and maintain responsibility for providing
training and supervision of such homes. A.R.S. §§ 8503(A)(4)(b)-(h); 8-509; 8-516. DCS is responsible for
investigating all allegations and risks of harm
involving children, including those in foster homes.
See A.R.S. §§ 8-503(A)(4)(i); 8-453(A)(19); 8-456. And
DSC may deny an application, suspend, or revoke a
foster parent’s license for violations of state statutes
governing child welfare. A.R.S. § 8-506.

App-53
“If a child [is] removed from the child’s home and
placed in out-of-home placement, guardianship or
adoptive placement, the [DCS must] make reasonable
efforts to place that child with the child’s siblings or,
if that is not possible, to maintain frequent visitation
or other ongoing contact between the child and the
child’s siblings unless a court determines . . . [either]
would be contrary to the child’s or a sibling’s safety or
wellbeing.” A.R.S. § 8-513(D). A child in foster care
also has a “right to maintain contact with friends and
other relatives unless the court has determined that
contact is not in the child’s best interests.” A.R.S. § 8513(C).
For all children in DCS custody, DCS collaborates
with AHCCCS and others to “provide comprehensive
medical and dental care,” A.R.S. § 8-512(A), and to
“determine the most efficient and effective way to
provide comprehensive medical, dental and behavioral
health services, including behavioral health
diagnostic, evaluation and treatment services for
children who are provided [comprehensive medical
and dental] care [].” A.R.S. § 8-512(B).
B. Second Amended Complaint (“SAC”)
The 53-page SAC contains factual allegations
concerning the existence of uniform, statewide policies
and practices in the foster care system and recounts in
detail the experiences of several Named Plaintiffs who
range from three to fourteen years of age in foster care
custody. (Doc. 37.) The SAC details how the Named
Plaintiffs allegedly did not receive necessary physical
and/or mental healthcare, were separated from
siblings who were also in the foster care system,
experienced frequent relocations and school transfers,

App-54
and did not receive early and periodic screening,
diagnostic, and treatment. (Id.) Many allegedly
suffered ill-prepared, neglectful, and abusive foster
parents and inattentive caseworkers. (Id.)
Named Plaintiffs claim their experiences were
caused by a number of “structural and operational
failures” which expose all children in the foster care
system to a substantial risk of harm that “continue[s]
to plague the state’s child welfare system.” (Doc. 37 at
4.) These failures include (1) severe shortage in
physical, mental, and behavioral health services
available to children in foster care; (2) widespread
failure to conduct timely investigations of reports that
children have been maltreated while in foster care
custody; (3) severe shortage of family foster homes;
and (4) widespread failure to engage in basic child
welfare
practices
for
maintaining
family
relationships. (Id.)
Two Defendants remain in this matter:
(1) Director of the DSC, Gregory McKay, who is
responsible for managing the state’s child welfare
system; and (2) Thomas Betlach, Director of the
AHCCCS, which administers and supervises the
state’s Medicaid program. (See Docs. 37, 188.) Named
Plaintiffs maintain these individuals are responsible
for administering the foster care system and they have
been aware of but have failed to address the problems
outlined in the SAC. (Doc. 37 at 4-5.) Named Plaintiffs
seek declaratory and injunctive relief for alleged
violations of their substantive due process rights
under the Fourteenth Amendment and their rights
under the Medicaid statute. (Id. at 24-45.)

App-55
C. Named Plaintiffs’ Motion
Named Plaintiffs seek to certify one general class
and two subclasses. (Doc. 234 at 11-12.) 1 First, Named
Plaintiffs seek to assert constitutional claims on
behalf of a general class of children who are or will be
in the legal custody of DCS due to a report or suspicion
of abuse or neglect (“General Class”). (Id. at 11.)
Second, Named Plaintiffs seek to assert constitutional
claims on behalf of a subclass of all children in the
General Class who are not placed in the care of an
adult relative or person who has a significant
relationship with the child (“Non-Kinship Subclass”).
(Id.) Third, Named Plaintiffs seek to assert a statutory
claim on behalf of a subclass comprised of all members
of the General Class who are entitled to early and
periodic screening, diagnostic, and treatment
(“EPSDT”) services under the federal Medicaid statute
(“Medicaid Subclass”). (Id.) This subclass alleges that
AHCCCS, the agency responsible for administering
the Medicaid program in Arizona, and DCS, which
provides physical and dental care services for
Medicaid eligible children in foster care through an
interagency agreement with AHCCCS, violated the
Medicaid statute. (Id. at 11-12.) Moreover, Named
Plaintiffs seek to appoint their counsel as Class
Counsel. (Id. at 44.) In support of their motion to
certify, Named Plaintiffs submitted nearly ninety
exhibits, including expert reports by multiple
1 Named Plaintiffs alleged five causes of action in this lawsuit,
and they have since voluntarily dismissed the fifth cause of
action. (Doc. 217.) For the purposes of this motion, Plaintiffs only
seek to certify a general class and two subclasses with regard to
the remaining four.

App-56
specialists in child welfare systems and health care
services, excerpts of deposition transcripts, internal
DSC documents and progress assessments, thousands
of pages of documents obtained through discovery, and
Named Plaintiffs’ sealed medical files. (Docs. 238,
286.)
II. ANALYSIS
Named Plaintiffs’ certification request is
governed by Rule 23 of the Federal Rules of Civil
Procedure. See Fed. R. Civ. P. 23. Class certification is
governed by Federal Rule of Civil Procedure 23.
Plaintiffs bear the burden of demonstrating they meet
Rule 23’s requirements. Zinser v. Accufix Research
Institute, Inc., 253 F.3d 1180, 1186 (9th Cir. 2001).
District courts have broad discretion in determining
whether to certify a class. Id.
Under Rule 23(a), a party seeking certification of
a class or subclass must satisfy four prerequisite
requirements: (1) numerosity, (2) commonality,
(3) typicality, and (4) adequacy of representation. Fed.
R. Civ. P. 23(a)(1)-(4). If they satisfy the initial
requirements, Named Plaintiffs’ proposed class and
subclasses must also satisfy the requirements of one
of the subsections of Rule 23(b), “which defines three
different types of classes.” See Leyva v. Medline Ind.,
Inc., 716 F.3d 510, 512 (9th Cir. 2013). Here, Named
Plaintiffs seek to certify their proposed class and
subclasses pursuant to Rule 23(b)(2), which requires
that “the party opposing the class has acted or refused
to act on grounds that apply generally to the class, so
that final injunctive relief or corresponding
declaratory relief is appropriate respecting the class
as a whole.” See Fed. R. Civ. P. 23(b)(2).

App-57
To determine whether a party has met the
requirements of Rule 23, the Supreme Court in WalMart Stores, Inc. v. Dukes (“Wal-Mart”) explained
“Rule 23 does not set forth a mere pleading standard.”
564 U.S. 338, 350 (2011). A plaintiff seeking class
certification must “affirmatively demonstrate his
compliance with [] Rule [23]—that is, he must be
prepared to prove that there are in fact sufficiently
numerous parties, common questions of law or fact,
etc.” Id. (emphasis in original). “Similarly, a party
must affirmatively prove that he complies with one of
the three subsections of Rule 23(b).” Parsons v. Ryan,
754 F.3d 657, 674 (9th Cir. 2014).
Certification is proper only if “the trial court is
satisfied, after a rigorous analysis, that the
prerequisites of Rule 23(a) have been satisfied.” WalMart, 564 U.S. at 350-51. “Although we have
cautioned that a court’s class-certification analysis
must be ‘rigorous’ and may ‘entail some overlap with
the merits of the plaintiff’s underlying claim . . . , Rule
23 grants courts no license to engage in free-ranging
merits inquiries at the certification stage.” Amgen Inc.
v. Connecticut Retirement Plans & Trust Funds, 568
U.S. 455, 465-66 (2013) (quoting Wal-Mart, 564 U.S.
at 351). As the Supreme Court in Amgen explained, it
“totally misapprehend[s] the essential point” of this
case law to suggest that certification is improper
unless plaintiffs are able to prove that the common
question “will be answered in their favor.” See id. at
468.
McKay and Betlach offer a variety of arguments
against certification. McKay argues Named Plaintiffs
do not have standing, Named Plaintiffs fail to satisfy

App-58
the commonality and typicality requirements under
Rule 23(a), and Named Plaintiffs’ request is an
inappropriate injunctive relief under Rule 23(b)(2).
(Doc. 245 at 3.) Betlach joins in the challenge over
whether Named Plaintiffs have standing. (Doc. 248 at
3.) However, Betlach also argues the lawsuit is moot
and opposes Named Plaintiffs’ motion to certify the
Medicaid Subclass in this case for failure to meet the
commonality,
typicality,
and
Rule
23(b)(2)
requirements. (Doc. 248 at 10-16.) The Court will
address each argument in turn.
A. Jurisdictional Issues
1.

Mootness

Betlach 2 argues that because four of the named
Named Plaintiffs (M.C-B, D.C-B, A.C-B, and J.M)
have been adopted, they are no longer in foster care
custody and this lawsuit should be dismissed as moot.3
McKay’s opposition brief also implicitly raises a mootness
argument. (Doc. 245 at 7, 20.) McKay attests that because the
state is already making plans to eliminate the substantial risk of
serious harm, there is no longer an ongoing harm to be enjoined
and “there is no need to order [the state of] Arizona to improve
its foster-care system.” (Id. at 20.) Even though McKay cited to
statistics suggesting that the state of Arizona’s foster care system
has improved since the filing of the lawsuit, these statistics do
not establish Defendants were not, are not, and will not be in
violation of Plaintiffs’ federal rights. Moreover, the merits of this
lawsuit involve whether DSC’s policies and practices constitute
ongoing constitutional and statutory violations. Thus, DSC’s
unilateral allegation that DSC is well on its way to fixing each
alleged constitutional and statutory issue does not render
Plaintiffs’ claims moot.
2

3 Betlach raised his mootness and standing arguments in the
context of the typicality issue. (Doc. 248 at 13.) The Court will
engage in a discussion of typicality below, but because standing

App-59
(Doc. 245 at 20; Doc. 248 at 14.) This argument is not
persuasive.
Although four of the Named Plaintiffs have been
adopted, there are still two Named Plaintiffs who can
represent the class, B.T. and B.K. Thus, the mootness
argument fails at the outset. But even if all Named
Plaintiffs permanently leave the foster care system,
the “capable of repetition, yet evading review”
exception to the mootness doctrine would apply. See
Pitts v. Terrible Herbst, Inc., 653 F.3d 1081, 1090-92
(9th Cir. 2011). Children in the foster care system are
inherently transitory. A child could be adopted, a child
could find a permanent guardian, and a child could
also return to the foster care system if the adoption or
guardianship does not work out. Any of these could
happen before a civil rights class action reaches
judgment and because being part of the foster care
system is a significant fact in this litigation, the
“capable of repetition, yet evading review” exception to
the mootness doctrine applies. Thus, the Court will
not dismiss this lawsuit based on mootness.
2.

Standing

Both McKay and Betlach challenge Named
Plaintiffs’ standing. (Doc. 245 at 3-4; Doc. 248 at 1213.) McKay alleges four of the Named Plaintiffs (M.C.B., D.C.-B., A.C.-B., and J.M.) have been adopted, and
he argues B.T. and B.K. have not shown
“individualized harm.” (Doc. 245 at 4.) In opposing the
certification of the Medicaid Subclass, Betlach also
and mootness are threshold jurisdictional issues and also distinct
from typicality, the Court will discuss the jurisdictional
arguments first.

App-60
argues it is not enough to speculate that each plaintiff
is “at risk” of a violation when Named Plaintiffs have
failed to offer any evidence that any of the Named
Plaintiffs actually suffered an EPSDT violation. (Doc.
248 at 14.)
To establish standing, a plaintiff must show he
“(1) suffered an injury in fact, (2) that is fairly
traceable to the alleged conduct of the defendant, and
(3) that is likely to be redressed by a favorable judicial
decision.” Spokeo v. Robbins, 136 S. Ct. 1540, 1547
(2016). “To establish injury in fact, a plaintiff must
show that he or she suffered an invasion of a legally
protected interest that is concrete and particularized
and actual or imminent, not conjectural or
hypothetical.” Id. at 1548. “For an injury to be
‘particularized,’ it ‘must affect the plaintiff in a
personal and individual way.’” Id. (internal citation
omitted). “A ‘concrete’ injury must be ‘de facto’; that is,
it must actually exist.” Id. “Although tangible injuries
are perhaps easier to recognize, . . . intangible injuries
can nevertheless be concrete.” Id. at 1549 (internal
citation omitted).
First, McKay’s first standing argument is based
on the assertion that four of the Named Plaintiffs have
been adopted. (Doc. 245 at 4.) Although other circuit
courts have found that plaintiffs not in foster care
custody lack standing to pursue constitutional claims,
see, e.g., 31 Foster Children v. Bush, 329 F.3d 1255,
1267 (11th Cir. 2003), this is not a sufficient basis for
dismissing the entire lawsuit. Standing exists if at
least one named plaintiff meets the requirements.
Ellis v. Costco Wholesale Corp., 657 F.3d 970, 979 (9th
Cir. 2011). Here, even if four of the six Named

App-61
Plaintiffs have been adopted since the lawsuit has
been filed, two Named Plaintiffs still remain.
Second, without identifying specifics to support
his argument, McKay conclusorily argues the
remaining two Named Plaintiffs have not shown
“individualized harm or that they have not received
the services for any of the putative classes seeking
certification.” (Doc. 245 at 4.) However, McKay’s
argument overlooks the seven pages in the SAC
dedicated to outlining the injuries B.T. and B.K.
personally suffered as well as the many exhibits
submitted in support of Named Plaintiffs’ motion
which demonstrate the personal and individual harm
they suffered.
For example, B.K. is a twelve-year-old girl who
has spent more than half of her life in state foster care.
(Doc. 37 at 6.) She was removed from her mother’s
home and placed in state foster care custody multiple
times. (Id.) When B.K. came into state care for a third
time, B.K. had bruises on her head from abuse by her
mother, and she was diagnosed with posttraumatic
stress disorder, a mood disorder, psychosis, and
anxiety. (Id.) The state separated B.K. from all of her
siblings and placed her in a group home on “emergency
shelter” status. (Id.) Although this was supposed to be
a short-term placement, B.K. remained in a group
home for more than two years. (Id. at 6-7.) While in
state custody at a group home, the state child welfare
agency failed to do the following: (1) ensure she
obtained glasses that she needed to see properly;
(2) discover she was walking with a limp; (3) make
sure she received the shoes she needed; (4) make sure
she got to see a dentist for a toothache she had for

App-62
multiple months; (5) ensure she received necessary
mental health services especially when she said she
heard voices were telling her to hurt people or that
someone would die; (6) ensure she would be able to get
to her health appointments; and (7) ensure she
received undisrupted services. (Id. at 7-8.) These facts
indicate B.K. personally suffered harm from not
receiving a variety of health care services, from being
placed in a group home away from her siblings, and
from not receiving the EPDST services in a prompt
manner. Thus, B.K. has shown she suffered
individualized and personal harm sufficient to
establish standing for the General Class, the NonKinship Subclass, and the Medicaid Subclass.
Similarly, B.T. is a sixteen-year-old boy who has
spent half his life in Arizona’s foster care custody. (Id.
at 11.) B.T. had been shuffled through multiple
institutional settings, separated from his sibling and
denied sibling visitation, and deprived of necessary
mental health care. (Id. at 11-15.) B.T. also attempted
suicide multiple times. (Id. at 15.) A month after being
taken into state foster care, B.T. had a psychological
evaluation indicating he needed therapeutic
treatment, but he had to wait six months before his
first therapy session. (Id. at 11.) A few months after
being placed in state foster care with one of his
brothers, B.T. was removed from the group home,
separated from his brother, and placed into a kinship
foster home with a paternal aunt. (Id. at 12.) He spent
six months in his kinship foster home with a paternal
aunt before any visits with his older brothers. (Id.)
Over the course of a decade, B.T. was denied
health care services, separated from his siblings, and

App-63
denied EPDST services numerous times. In August
2006, B.T.’s aunt told the state child welfare agency
B.T. was not receiving the counseling he needed and
requested an updated psychological evaluation. (Id.)
But none was conducted. (Id.) When his aunt told the
agency that she could no longer care for B.T. because
they were not providing him with the mental health
evaluation and services he needed, the agency moved
B.T. to an emergency foster home rather than
providing those services. (Id.)
In October 2006, B.T. was temporarily placed with
a foster family and he threatened to kill himself and
his temporary foster family. (Id.) Yet, he still did not
receive regular therapy. (Id.) Instead the agency only
responded by removing the six-year-old B.T. from the
home and placing him in a group home. (Id.) The state
child welfare agency received reports that B.T. was
struggling emotionally in the group home. (Id.) Even
after another psychological evaluation was requested
for B.T., the state did not schedule it until months
later and did not provide him with any counseling in
the interim. (Id.) An evaluation indicated he needed
individual therapy and prescribed psychotropic
medication. (Id.) A psycho-educational evaluation was
recommended but never conducted. (Id.)
Just a month after B.T. was placed in a preadoptive home with one of his brothers in January
2008, the family reported to the state B.T.’s need for
more intensive counseling and a more suitable
counselor. (Id.) B.T. and his brother were adopted in
August 2008, but taken back to state foster care in
March 2011. (Id. at 13.) Shortly after this happened,
B.T. reported his adoptive father had beat him with a

App-64
belt, and the state immediately separated B.T. from
his brother, placing the two boys in different
nontherapeutic group homes. (Id.) The group home
reported B.T. needed counseling, but he did not
receive any counseling while at this group home. (Id.)
Within a month of being back in the state’s foster care
system, B.T. was hospitalized in an acute care mental
health facility for two weeks, and the state returned
B.T. back to the group home after the hospitalization.
(Id.) B.T.’s mental health then worsened, he was
approved for a therapeutic Home Care Training to
Home Care Client (“HCTC”) placement, but one was
not available for him. (Id.) B.T. then ran away, spent
a night at a juvenile detention center, and then moved
to a new group home hours away from his prior
placement because his prior group home had already
filled his bed with another child. (Id.)
In July 2011, B.T. was moved to a HCTC home,
but did not receive trauma therapy and did not receive
a psycho-sexual evaluation until October 2011. (Id.)
When the state finally began looking for a HCTC
placement for B.T. six months later, the state was
unable to find one and moved him to a non-therapeutic
group home/shelter in August 2012. (Id.) He
threatened to kill himself three times while in this
non-therapeutic congregate care placement. (Id. at
14.) When the shelter reported to the state that B.T.
needed a higher level of care in November 2012, the
state moved him the following month to a therapeutic
group home. (Id.) But when B.T.’s suicidal thoughts
continued, the state moved him back to the earlier
non-therapeutic group home/shelter in January 2013.
(Id.)

App-65
In June 2013, B.T. had another incident where he
grabbed the steering wheel of a van driven by group
home staff and said “I want us all to die.” (Id.) On that
same day, the state’s therapeutic team overseeing his
health services reported the following: “with a few
exceptions, B.T. is doing well over the last 2 weeks.”
(Id.) After this suicide attempt, B.T.’s psychiatrist
recommended he be placed in a residential treatment
facility. (Id.) While the request was pending, the state
moved him to the following: (1) a therapeutic group
home far away, (2) another therapeutic group home in
September 2013, (3) a non-therapeutic family foster
home in March 2014, (4) a non-therapeutic foster
home in July 2014, (5) a shelter in October 2014, and
(6) another therapeutic group home even though he
received approval for a therapeutic HCTC placement
in November 2014. (Id. at 14-15.) Up until September
2014, he had one therapy session, and he threatened
to commit suicide again in December 2014. (Id.)
These facts indicate B.T. personally suffered
harm from not receiving a variety of health care
services (including physical and mental health
services), from being placed in a group home away
from his siblings, and from not receiving the EPDST
services in a prompt manner. Thus, B.T. has shown he
suffered sufficient personal harm to establish
standing for the General Class, the Non-Kinship
Subclass, and the Medicaid Subclass.
Third, Betlach alleges B.T. and B.K. have not
alleged harm as a result of being deprived of their
rights under the Medicaid statute. (Doc. 248 at 14.) A
district court “must determine that at least one named
class representative has Article III standing to raise

App-66
each class subclaim.” Prado-Steinman ex rel. Prado v.
Bush, 221 F.3d 1266, 1279. However, as discussed
above, B.T. and B.K. presented evidence they
personally suffered harm from not receiving the
necessary health care diagnostic services and
treatment necessary to correct physical and mental
conditions in a prompt manner. Thus, B.T. and B.K.
have standing to challenge whether the DSC’s and the
AHCCCS’s policies and practices violate the Medicaid
statute, and the Court will not dismiss this case based
on standing.
B. Class Certification
Defendants McKay and Betlach do not dispute
that Named Plaintiffs meet the requirements of
numerosity and adequacy of representation (see Doc.
245 at 1; Doc. 248), and the Court also agrees Named
Plaintiffs have satisfied their burdens with regard to
these prerequisites. Defendants argue Named
Plaintiffs have not satisfied the commonality and
typicality prerequisites as well as the requirements
under Rule 23(b)(2). The Court will analyze each but
will focus its analysis on the prerequisites in dispute.
1.

Numerosity under Rule 23(a)(1)

Rule 23(a)(1) requires the proposed class be “so
numerous that joinder of all members is
impracticable.” Fed. R. Civ. P. 23(a). There is no
specific number that satisfies the numerosity
requirement. Gen. Tel. Co. of the Nw., Inc. v. Equal
Emp’t Opportunity Comm’n, 446 U.S. 318, 330 (1980).
Here, Named Plaintiffs have produced evidence
indicating that in 2016 there were over 18,000
children in the General Class, over 10,000 children in
the Non-Kinship Subclass, and over 17,000 children in

App-67
the Medicaid Subclass. (Doc. 238-1, Ex. 31 at DSC00132510, Ex. 32 at AH 0000673, Ex. 33 at DSC00121026.) Defendants do not contest this issue, and
the Court finds this prerequisite has been satisfied.
2.

Commonality under Rule 23(b)(2)

Rule 23(a)(2) requires there be “questions of law
or fact common to the class.” Fed. R. Civ. P. 23(a)(2).
This provision requires plaintiffs “demonstrate that
the class members ‘have suffered the same injury,’”
not merely violations of “the same provision of law.”
Wal-Mart, 564 U.S. at 350 (internal citation omitted).
Commonality is satisfied where plaintiff’s claims
depend on a “common contention” that is “capable of
classwide solution—which means that determination
of its truth or falsity will resolve an issue that is
central to the validity of each one of the claims in one
stroke.” Id. “What matters to class certification . . . is
not the raising of common ‘questions’—even in
droves—but, rather the capacity of a classwide
proceeding to generate common answers apt to drive
the resolution of the litigation.” Id. (internal citation
omitted).
Post-Wal-Mart, the Ninth Circuit recognized
“Plaintiffs need not show that every question in the
case, or even a preponderance of questions, is capable
of classwide resolution.” Wang v. Chinese Daily News,
Inc., 737 F.3d 538, 544 (9th Cir. 2013). “Where the
circumstances of each particular class member vary
but retain a common core of factual or legal issues
with the rest of class, commonality exists.” Evon v.
Law Offices of Sidney Mickell, 688 F.3d 1015, 1029
(9th Cir. 2012) (internal citation omitted). Specifically,
members of the proposed class need not share every

App-68
single fact in common but “common questions may
center on ‘shared legal issues with divergent factual
predicates or a common core of salient facts coupled
with disparate legal remedies.’” Jimenez v. Allstate
Ins. Co., 765 F.3d 1161, 1165 (9th Cir. 2014) (internal
citation omitted). “To assess whether the putative
class members share a common question, . . . we must
identify the elements of the class members’[] case-inchief.” Parsons, 754 F.3d at 676 (internal citation
omitted).
a.

Claims at Issue
Certification

for

Class

In the Named Plaintiffs’ case, the state functions
as the de facto parent of a child in foster care. Tamas
v. Dep’t of Social & Health Servs., 630 F.3d 833, 843
(9th Cir. 2010); see also Taylor ex rel. Walker v.
Ledbetter, 818 F.2d 791, 795 (11th Cir. 1987) (en banc)
(“The state’s action in assuming the responsibility of
finding and keeping the [foster] child in a safe
environment placed an obligation on the state to
insure the continuing safety of that environment.”)
Here, Named Plaintiffs seek to pursue three
constitutional substantive due process claims through
the General Class and the Non-Kinship Subclass.
(Doc. 234 at 11.) Specifically, DSC’s practices deprived
the General Class of their right to adequate and timely
physical, dental, and mental health care (Cause of
Action I) and to timely investigations into allegations
of abuse and neglect while in the state’s custody
(Cause of Action III). (Id.) And DSC’s practices
deprived the General Class of their right to placement
in a living environment that protects their physical,
mental, and emotional safety, and well-being (Cause

App-69
of Action IV). (Id.) Because these claims arise as
constitutional substantive due process claims, the
Court will discuss these claims together when
analyzing the commonality prerequisite. Further,
Named Plaintiffs also pursue a statutory claim
through the Medicaid Subclass, alleging the practices
of the DSC and the AHCCCS deprived the Medicaid
Subclass of early and periodic screening, diagnostic,
and treatment services required under the federal
Medicaid statute. (Id.)
b.

Constitutional Substantive Due
Process Claims

First, to establish a due process claim, state
officials must act with such deliberate indifference to
the liberty interest that their actions “shock the
conscience.” Tamas, 630 F.3d at 844. Conduct that
“shocks the conscience” is “deliberate indifference to a
known or so obvious as to imply knowledge of danger.”
Id. (internal citation omitted). “[T]he deliberate
indifference standard, as applied to foster children,
requires a showing of an objectively substantial risk of
harm and a showing that the officials were
subjectively aware of facts from which an inference
could be drawn that a substantial risk of serious harm
existed and that either the official actually drew that
inference or that a reasonable official would have been
compelled to draw that inference.” Id. at 845
(concluding the “analysis [in the foster care context] is
identical to the subjective deliberate indifference
component [ ] articulated in prisoner cases and
includes by implication the objective component
requiring the existence of a substantial risk of serious
harm”).

App-70
Here, Named Plaintiffs identified several statewide practices affecting the proposed General Class:
failure to provide timely access to health care
(including comprehensive evaluations, timely annual
visits, semi-annual preventative dental health care,
adequate health assessments, and complete
immunizations); failure to coordinate the delivery of
physical and dental care services; ineffective
coordination and monitoring of physical and dental
services by DCS; DCS’s overuse of congregate care for
children with unmet mental health needs; excessive
DCS caseworker caseloads; failure to initiate
investigations in a timely manner after reports of
abuse; failure to document a timely “safety
assessment” after initiating an investigation; failure
to meet deadline for closing investigations; and delays
in important investigative steps. (Doc. 234 at 26-27.)
Based on these policies and practices, Named
Plaintiffs assert that common questions capable of
resolution on a classwide basis involve questions
including whether DCS’s practices subject the General
Class to a substantial risk of harm in violation of
Fourteenth Amendment rights by (1) failing to provide
physical and dental health care, (2) failing to provide
mental and behavioral health care, or (3) failing to
conduct timely investigations into reports when
children have been abused or neglected while in foster
care. (Doc. 234 at 17.)
Named Plaintiffs also identified the following
practices affecting the Non-Kinship Subclass: DCS’s
excessive use of emergency shelters and group homes,
unnecessary separation of siblings, and placement of
children far from home. (Doc. 234 at 31-35; Doc. 254 at

App-71
15.) Based on these practices, Named Plaintiffs
contend there are common questions regarding
whether DSC’s practices (1) subject Non-Kinship
Subclass members to a substantial risk of harm in
violation of substantive due process; (2) fail to
maintain an adequate number of foster home
placements; (3) place children in appropriate settings
(e.g., shelters or congregate placements) resulting in
physical and psychological harm; (4) improperly
separates children from siblings; and (5) place
children far from home communities making visits
from biological family difficult. (Doc. 234 at 32.)
McKay and Betlach argue that commonality is not
met in this action because “the diversity of needs of
children
in
care
require[s]
an
individual
determination.” (Doc. 245 at 4; see also Doc. 248 at 11.)
While one child’s medical diagnosis or placement
assessment may differ from the next, the deliberate
indifference standard involves Named Plaintiffs
showing an objective substantial risk of harm based
on the state’s policies and practices and the officials’
subjective awareness of their risk. Specifically, central
to each claim is whether children in state foster care
custody are exposed to statewide practices governing
overall conditions of health care services or placement
decisions resulting in a substantial risk of serious
future harm to which the defendants were deliberately
indifferent. Here, Named Plaintiffs correctly
identified that the Ninth Circuit’s opinion in Parsons
is instructive for the commonality analysis.
In Parsons, the Ninth Circuit upheld a district
court’s order granting class certification where
plaintiffs sued the Arizona Department of Corrections

App-72
(“ADC”) for mass deficiencies and outlined a number
of specific, uniform, statewide policies and practices
that exposed all ADC inmates to a substantial risk of
harm. Parsons, 754 F.3d at 662. The Ninth Circuit
found all ADC inmates were exposed to “specified
statewide ADC policies and practices that govern the
overall conditions of health care services and
confinement,” and this exposure resulted in “a
substantial risk of serious future harm to which the
defendants were deliberately indifferent.” Id. at 678.
The Ninth Circuit also found the identified practices
were “the ‘glue’ that h[e]ld[] together the putative
class . . . either each of the policies and practices is
unlawful as to every inmate or it is not.” Id.
Similar to Parsons, the putative class and
subclass members here also set forth numerous
common contentions whose truth or falsity can be
determined in one stroke: whether the specified
statewide policies and practices to which they are all
subjected by the DSC expose them to a substantial
risk of harm. Here, Named Plaintiffs identified several
statewide practices that affect the General Class and
Non-Kinship Subclass.
The inquiry here does not require the Court to
determine the effect of the policies and practices upon
any individual class member (or class members) or to
undertake an individualized determination. Even if
health issues may differ, every child in the DSC
custody is necessarily subject to the same medical,
mental health, and dental care policies and practices
of the DSC in the same way that the inmates in
Parsons were subjected to the policies and practices of
the ADC. Any one child could easily fall ill, be injured,

App-73
need treatment, require a diagnostic, need emergency
care, crack a tooth, or require mental health
treatment. And any child in the foster care system
would be subjected to the DSC’s policies regarding
placement decisions. Thus, every single child in the
foster care system faces a substantial risk of serious
harm if DSC policies and practices fail to adhere to
constitutional requirements. See Parsons, 754 F.3d at
679.
c.

Statutory Claim
Medicaid Act

under

the

Under the Medicaid Act, a state must have a plan
for medical assistance that provides for EPSDT
services for individuals who are eligible for Medicaid.
42
U.S.C.
§§ 1396a(a)(10)(A);
1396d(a)(4)(B);
1396a(a)(43); 1396d(r). EPSDT services refer to
screening, medical, vision, dental, and hearing
services as well as other necessary health treatment
services. 42 U.S.C. §§ 1396d(r)(1)-(5); 1396a(a)(43)(C).
Children in state foster care are eligible beneficiaries
of
Medicaid
services.
42
U.S.C.
§ 1396a(a)(10)(A)(i)(I). 4
Thus,
Medicaid-eligible
children in foster care have a right to EPSDT services
and the state Medicaid agency, such as AHCCCS, has
According to the SAC, Arizona has an EPSDT Periodicity
Schedule which describes when certain health examinations and
services need to be provided, and DCS and AHCCCS have policies
requiring examinations and services in specific situations. (Doc.
37 at 32-34.) Named Plaintiffs do not appear to challenge the
written policies, but rather conclude through personal
experiences and expert findings that the DCS and AHCCCS’s
actual practices did not comply with the written policies. Thus,
Named Plaintiffs challenge the routine practice of failing to
provide statutorily required services.
4

App-74
“an obligation to see that the services are provided
when screening reveals that they are medically
necessary for a child.” Katie A. ex rel. Ludin v. Los
Angeles Cty., 481 F.3d 1150, 1158 (9th Cir. 2007).
Named Plaintiffs identified several statewide
practices affecting the proposed Medicaid Subclass:
excessive DCS caseworker caseloads, ineffective
coordination of mental and behavioral health care
between DCS and AHCCCS contractors, AHCCCS
contractors’ incomplete and out-of-date service plans,
ineffective coordination and monitoring of physical
and dental services by DCS, shortage of therapeutic
foster care placements and services maintained by
AHCCCS and DCS, shortage of residential treatment
center placements maintained by AHCCCS, shortage
of behavioral health providers maintained by
AHCCCS, and DCS’s overuse of congregate care for
children with unmet mental health needs. (Doc. 254 at
11; see also Doc. 234 at 13-27.)
Based on these practices, Named Plaintiffs assert
there are common questions as to whether these
practices by AHCCCS and DCS (1) failed to provide
timely and adequate access to preventative medical,
dental, and mental health screening and diagnostic
services; (2) failed to coordinate care to ensure timely
medically necessary physical, dental, and mental
health treatment to address healthcare needs; and
(3) failed to build and maintain an adequate capacity
and infrastructure of mental health providers and
therapeutic placements to assure that mental health
needs are timely addressed. (Doc. 234 at 29).
Similar to the constitutional claims, central to the
claim here is the question of whether practices by DSC

App-75
and AHCCCS failed to adhere to the Medicaid statute.
Even if a child’s specific medical diagnosis may differ,
however, whether the foster care system’s practices
establish a pattern of non-compliance arise from
statewide policies and practices by DSC and AHCCCS.
Betlach argues that with regard to the Medicaid
Subclass, Named Plaintiffs failed to meet the
commonality requirement because “they woefully fail
to offer any evidence that AHCCCS has actually
violated the EPSDT provisions.” (Doc. 248 at 11-12.)
However, “[m]erits questions may be considered to the
extent—but only to the extent—that they are relevant
to determining whether the Rule 23 prerequisites for
class certification are satisfied.” Amgen, 568 U.S. at
466; see also Stockwell v. City & Cty. of San Francisco,
749 F.3d 1107, 1112 (9th Cir. 2014) (holding that the
opinion in Amgen demonstrates commonality does not
require showing the putative class will prevail on
whatever common questions it identifies); Messner v.
Northshore Univ. HealthSystem, 669 F.3d 802, 811
(9th Cir. 2012) (“[T]he court should not turn the class
certification proceedings into a dress rehearsal for the
trial on the merits.”); Ellis, 657 F.3d at 983 n.8
(emphasizing “whether class members could actually
prevail on the merits of their claims” is not a proper
inquiry in determining “whether common questions
exist”). 5 Thus, Named Plaintiffs satisfy the
commonality requirement.
5 In any case, Named Plaintiffs’’ briefing and expert reports
offer reliability and significant information to show state-wide
practices exist. Although it is not necessary to assess the merits
of whether Defendants violated the Medicaid Act beyond the
question of class certification, Plaintiffs also offer evidence

App-76
3.

Typicality under Rule 23(a)(3)

Rule 23(a)(3) requires that “the claims or defenses
of the representative parties are typical of the claims
or defenses of the class.” Fed. R. Civ. P 23(a)(3). A
named plaintiff’s claims are typical of the class under
Rule 23(a)(3) if they are “reasonably coextensive with
those of the absent class members; they need to be
substantially identical.” Torres v. Mercer Canyons,
Inc., 835 F.3d 1125, 1141 (9th Cir. 2016) (citation
omitted). The Ninth Circuit in Parsons stated that this
test is met where the named plaintiffs demonstrate
their “injury is a result of a course of conduct that is
not unique to any of them,” and they allege that their
“injury follows from the course of conduct at the center
of the class claims.” 754 F.3d at 685.
Here, B.T. and B.K. are children in DSC custody.
It is alleged that both of them have been and are
exposed to a substantial risk of serious harm by the
challenged DSC and AHCCCS policies and practices.
Thus, the Named Plaintiffs allege “the same or [a]
similar injury” as the rest of the putative class; they
allege this injury is a result of a course of conduct that
is not unique to any of them and the injury follows
from the cause of conduct at the center of the class
claims. Since every child in the foster care system
under state custody is highly likely to require medical
care and housing placement, each Named Plaintiff is
similarly positioned to all other children with respect
showing DCS and AHCCCS violated Plaintiffs’ statutory rights
by failing to do the following: (1) detect and treat medical and
dental needs, (2) provide annual well-child physicals, (3) provide
semi-annual dental check-ups, and (4) provide timely
immunizations. (Reply at 5-10.)

App-77
to exposure to the Defendants’ policies and practices.
In Parsons, the Ninth Circuit explicitly rejected
arguments in this context about how named plaintiffs
may have in the past suffered varying injuries or how
they may currently have different health care needs.
Parsons, 754 F.3d at 686. The Court held Rule 23(a)(3)
requires only that their claims be “typical” of the class
and not that they be identically positioned to each
other or to every class member. Ellis, 657 F.3d at 985
n.9 (finding that typicality is not defeated by different
factual scenarios when they result in a claim of the
same nature). Thus, Named Plaintiffs satisfy
typicality.
4.

Adequacy of Representation under
Rule 23(a)(4)

Rule 23(a)(4) requires the “representative parties
will fairly and adequately protect the interests” of
each of the classes that Named Plaintiffs seek to
certify. Fed. R. Civ. P. 23(a)(4). To determine whether
this prerequisite is satisfied, the court asks two
questions: (1) do the named plaintiffs and their
counsel have any conflicts of interest with other class
members and (2) will the named plaintiffs and their
counsel prosecute the action vigorously on behalf of
the class?” Hanlon v. Chrysler Corp., 150 F.3d 1011,
1020 (9th Cir. 1998). Here, the Named Plaintiffs and
their counsel do not have conflicts of interest with
other class members since Named Plaintiffs seek to
improve structural deficiencies that affect children in
DCS custody. And Named Plaintiffs assert they will
continue to prosecute this action vigorously on behalf
of each class member. Defendants also do not contest
this issue. Thus, this requirement is satisfied.

App-78
5.

Injunctive and Declaratory Relief
under Rule 23(b)(2)

Certification under this rule requires that “the
party opposing the class has acted or refused to act on
grounds that apply generally to the class, so that final
injunctive relief or corresponding declaratory relief is
appropriate respecting the class as a whole.” Fed. R.
Civ. P. 23(b)(2). Rule 23(b)(2)’s primary role is the
certification of civil rights cases like this one. Parsons,
754 F.3d at 688 (stating Rule 23(b)(2)’s requirements
are “unquestionably satisfied” when the putative class
seeks “uniform injunctive or declaratory relief from
policies or practices that are generally applicable to
the class as a whole”).
Courts have invoked Rule 23(b)(2) to certify
classes of foster children seeking declaratory and
injunctive relief for alleged widespread violations in
the foster care system. See, e.g., Marisol A. v. Guiliani,
126 F.3d 372, 378 (2d Cir. 1997) (affirming class
certification on behalf of a class of Medicaid-eligible
foster children); DG ex rel. Stricklin v. Devaughn, 594
F.3d 1188 (10th Cir. 2010) (affirming the district
court’s finding that the proposed class satisfied Rule
23(b)(2)’s “generally applicable” and cohesiveness
requirements).
Defendants argue this requirement has not been
met because the remedies sought by Named Plaintiffs
are “too abstract” and are so generic that relief could
be afforded to every class member only if the Court
tailored an injunction as to each one. (Doc. 245 at 7;
Doc. 248 at 15.) However, Named Plaintiffs’ claims
challenge Defendants’ common set of policies and
practices involving health care services and the

App-79
placement of children in the foster care system. And
although Betlach contends certification of the
Medicaid Subclass will implicate individualized
adjudications, Named Plaintiffs are claiming that
Defendants’ policies are impermissible under the
statute—not that a specific plaintiff should have
received a particular diagnosis or treatment instead of
another. See Perez- Olano v. Gonzalez, 248 F.R.D. 248,
259 (C.D. Cal. 2008) (finding the Rule 23(b)(2)
requirements met when the legality of defendants’
conduct involved defendants’ common set of policies
that are applied to a category of in-custody minors). In
other words, the harm Named Plaintiffs seek to
remedy is the “risk of exposure” created by subjecting
children in foster care to DSC’s and AHCCCS’s
policies and practices—not the harm an individual
child suffers from a misdiagnosis. Thus, this
requirement is satisfied.
C. Appointment of Counsel
Named Plaintiffs seek to appoint Perkins Coie
LLP, Arizona Center for Law in the Public Interest,
and Children’s Rights, Inc. as class counsel. (Doc. 37
at 35; Doc. 234 at 44.) Class counsel must fairly and
adequately represent the interests of the class. Fed. R.
Civ. P. 26(g)(4). In appointing class counsel, the court
must consider: (i) the work counsel has done in
identifying or investigating potential claims in the
action; (ii) counsel’s experience in handling class
actions, other complex litigation, and the types of
claims asserted in the action; (iii) counsel’s knowledge
of the applicable law; and (iv) the resources that
counsel will commit to representing the class. Fed. R.
Civ. P. 26(g)(1)(A)(i)-(iv). The Court may also consider

App-80
anything else “pertinent to counsel’s ability to fairly
adequately represent the interests of the class” and
“may order potential class counsel to provide
information on any subject pertinent to the
appointment and to propose terms for attorney’s fees
and nontaxable costs.” Fed. R. Civ. P. 23(g)(1)(B)-(C).
Rule 23(g) also instructs, “[i]f more than one adequate
applicant seeks appointment, the court must appoint
the applicant best able to represent the interests of the
class.” Fed. R. Civ. P. 23(g)(2).
Named Plaintiffs seek the appointment of a law
firm and two legal organizations as class counsel.
(Doc. 234 at 44.) Despite the strictures of Rule 23(g),
given the size of the proposed class, it is not
unreasonable to appoint multiple counsel in this case.
Here, Plaintiffs’ counsel satisfies the four
requirements under Rule 26(g)(4). First, counsel
conducted an exhaustive investigation the Arizona
child welfare system, safety, health, and well-being of
children in DSC custody. (Doc. 234 at 44.) Counsel
interviewed dozens of stakeholders across the state
and spent hundreds of hours obtaining and reviewing
relevant information. (Id.) Second, counsel also have a
wealth of experience in complex litigation and in
representing children in the custody of state child
welfare systems. (Id.) Third, counsel are well-versed
and have extensive experience in the law and claims
at issue here and have handled numerous civil rights
lawsuits in federal court. (Id.) Fourth, counsel are
prepared to continue funding this litigation through
its resolution and will continue to dedicate the
resources required to zealously represent the class
and subclasses of children. (Id.; Docs. 235, 236, 237.)
Moreover, McKay and Betlach do not object to the

App-81
appointment of counsel. (See Doc. 245 at 1 n.3.) Thus,
the Court will appoint Named Plaintiffs’ counsel as
class counsel.
Accordingly,
IT IS ORDERED Named Plaintiffs’ motion for
class certification (Doc. 234) is GRANTED in part.
The Court certifies the General Class, the NonKinship Subclass, and the Medicaid Subclass as
follows:
General Class: All children who are or will be in
the legal custody of DCS due to a report or suspicion
of abuse or neglect.
Non-Kinship Subclass: All members in the
General Class who are not placed in the care of an
adult relative or person who has a significant
relationship with the child.
Medicaid Subclass: All members of the General
Class who are entitled to early and periodic screening,
diagnostic, and treatment services under the federal
Medicaid statute.
IT IS FURTHER ORDERED Named Plaintiffs
B.K., by her next friend Margaret Tinsley, and B.T.,
by his next friend Jennifer Kupiswzewski, are
appointed as Class Representatives for the General
Class, the Non-Kinship Subclass, and the Medicaid
Subclass.
IT IS FURTHER ORDERED Named Plaintiffs’
request to appoint Perkins Coie LLP, Arizona Center
for Law in the Public Interest, and Children’s Rights,
Inc. as Class Counsel is GRANTED.

App-82
Dated this 29th day of September, 2017.
[handwritten: signature]
Honorable Roslyn O. Silver
Senior United States
District Judge

